<html>
<title> - SUPPORTING THE WARFIGHTER OF TODAY AND TOMORROW</title>
<body><pre>[Senate Hearing 114-216]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-216

            SUPPORTING THE WARFIGHTER OF TODAY AND TOMORROW

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 3, 2015

                               __________

         Printed for the use of the Committee on Armed Services



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





        Available via the World Wide Web: http://www.fdsys.gov/
                               __________

                        U.S. GOVERNMENT PUBLISHING OFFICE 

99-664 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  
  
  
  
  
  
  
  
  
  
  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  

















                            C O N T E N T S

                               __________

                            december 3, 2015

                                                                   Page

Supporting the Warfighter of Today and Tomorrow..................     1

Donley, Secretary Michael B., Former Secretary of the Air Force..     4
Flynn, Lieutenant General Michael T., USA, Retired, Former 
  Director of the Defense Intelligence Agency....................    17
Jones, General James L., USMC, Retired, Former National Security 
  Advisor to the President of the United States; Supreme Allied 
  Commander, Europe and Commander of U.S. European Command; and 
  32nd Commandant of the Marine Corps............................    26


                                 (iii)

 
            SUPPORTING THE WARFIGHTER OF TODAY AND TOMORROW

                              ----------                              


                       THURSDAY, DECEMBER 3, 2015

                                        U.S. Senate
                                Committee on Armed Services
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:31 a.m. in Room 
SD-106, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee Members Present: Senators McCain, Ayotte, 
Fischer, Ernst, Tillis, Sullivan, Reed, McCaskill, Manchin, 
Gillibrand, Donnelly, Hirono, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. The Senate Armed Services Committee meets 
to continue our series of hearings on defense reform. In our 
three previous hearings, we have reviewed the effects of the 
Goldwater-Nichols reforms on our defense acquisition, 
management, and personnel systems. In today's hearings and the 
two that will follow it, we will consider what most view as the 
essence of Goldwater-Nichols: the roles and responsibilities of 
the Secretary of Defense, the Chairman of the Joint Chiefs of 
Staff, the service secretaries and service chiefs, and the 
combatant commanders. This morning we seek to understand 
whether these civilian and military leadership organizations 
can function better to support the warfighters of today and 
tomorrow.
    We are fortunate to welcome a distinguished panel of 
witnesses who have grappled with these challenging issues over 
their many years of service to our Nation: the Honorable 
Michael B. Donley, former Secretary of the Air Force; 
Lieutenant General Michael T. Flynn, former Director of the 
Defense Intelligence Agency; and General James Jones, former 
National Security Advisor; Supreme Allied Commander and 
Commander of U.S. European Command; and Commandant of the 
Marine Corps. We welcome you this morning.
    30 years ago, Congress passed Goldwater-Nichols in response 
to serious concerns about the effectiveness of our military. 
The failure of the Iranian hostage rescue mission in 1980 and 
poor coordination between the services during the invasion of 
Grenada in 1983 were clear signs that something was wrong. 
Congress and others concluded that these failures were driven 
by a number of factors, including the absence of unity of 
command and an inability to operate jointly.
    Goldwater-Nichols sought to address these problems by 
making the unified commanders explicitly responsible to the 
President and the Secretary of Defense for the performance of 
missions and preparedness of their commands. Combatant 
commanders were given the ability to issue authoritative 
direction on all aspects of operations, joint training, 
logistics, internal chains of command, and personnel within 
their assigned areas of responsibility. Goldwater-Nichols also 
removed the Joint Chiefs of Staff from the operational chain of 
command and prevented the services from moving forces in and 
out of regional commands without approval.
    Just 5 years after the passage of Goldwater-Nichols, 
America's rapid and stunning victory in the 1991 Gulf War 
seemed to suggest that these reforms had worked. However, more 
recent experience on the battlefield has led to renewed concern 
about the respective roles and responsibilities of the service 
chiefs and the combatant commanders as conceived in Goldwater-
Nichols.
    A decade and a half of war in Afghanistan and Iraq suggests 
that the Department of Defense is not optimally organized for 
protracted conflicts. As Secretary Gates recently testified to 
this committee, his experience as a wartime secretary led him 
to conclude that the Department of Defense is, quote, designed 
to plan for war but not to wage war, at least for the long 
term. Indeed, whatever one thinks about the circumstances by 
which we all went to war in Iraq 12 years ago, it should be 
deeply concerning to all of us that our Nation was losing that 
war for 3 years, and the strategy that ultimately turned things 
around did not emerge from the system, but rather from a small 
group of internal insurgents and outside experts working around 
the system. That is a compelling indictment of our defense 
organization.
    For some, including Secretary Gates, Goldwater-Nichols 
succeeded all too well by turning the services into force 
providers that are perhaps too walled off from operational 
responsibilities. With a confined focus on the train and equip 
mission, the services have overwhelmingly concentrated more on 
delivering long-term programs of record than urgently needed 
capabilities in current conflicts.
    While this problem raises serious questions, we must be 
cautious of the other extreme. If combatant commanders were 
fully resourced with everything they believe is necessary for 
their theater, the Department of Defense would be totally 
sapped of resources to invest in critical technologies needed 
to counter future adversaries. I look forward to our witnesses' 
views on whether the Department could strike a better balance 
between supporting both the warfighters of today and tomorrow 
and if so, how.
    At the same time, we must also ensure that the operational 
organization of our military accurately reflects and responds 
to our present and future national security challenges. Our 
Nation confronts the most diverse and complex array of crises 
since the end of World War II, from ISIL [the Islamic State of 
Iraq and the Levant] and Al Qaeda, to North Korea and Iran, to 
Russia and China. What all of these threats have in common is 
that they are not confined to a single region of the world. 
They span multiple regions and domains of military activities. 
Our combatant commands are still predominantly geographically. 
We must ensure that our defense organization has the regional 
and functional flexibility and agility to address cross-cutting 
national security missions.
    Many of our prior witnesses have observed that combatant 
commands no longer directly fight wars, as Goldwater-Nichols 
originally envisioned. Instead, that is done by joint task 
forces established on an ad hoc basis and tailored to a given 
contingency operation. This makes the dramatic growth of the 
headquarters staffs at the combatant commands all the more 
difficult to justify. I would be eager to hear from our 
witnesses whether, 30 years after Goldwater-Nichols, we should 
consider re-imagining, reorganizing, or consolidating our 
combatant commands.
    I thank our witnesses and look forward to their testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in thanking the witnesses for not only being here 
today but for their extraordinary service to the Nation.
    We have been holding a series of hearings that looks at the 
organization and processes of the Department of Defense, and 
the whole focus is to provide the best possible support for our 
warfighters. You gentlemen know more about that than 
practically anybody else. So thank you for joining us today.
    A constant theme that has emerged in testimony from 
previous hearings is that the Department of Defense has a 20th 
century organization facing 21st century challenges: 
globalization, rapid adoption of new technology and 
particularly cyber, free flow of information. These are 
developments that have complicated the security environment by 
facilitating a rise of near-peer competitors and irregular 
threats from transnational terrorist groups. However, I believe 
these trends also provide opportunities to improve U.S. 
military capabilities which will support the warfighter if they 
can be effectively harnessed through updated organizational 
structures and processes. As yesterday's hearing made clear, 
the men and women who make up the all-volunteer force remain 
this committee's top concern. We must ensure they have the 
resources they need to complete their mission and return safely 
home.
    Testifying on these issues earlier this fall--and I will 
again like the chairman quote Secretary Gates--he described the 
challenges he faced in delivering rapidly needed capabilities 
to troops in the field. He indicated that `the only way I could 
get significant new or additional equipment to commanders in 
the field in weeks or months--not years--was to take control of 
the problem myself through special task forces and ad hoc 
processes.' He pointed out the MRAP [Mine-Resistant Ambush 
Protected Vehicle] as an example of one of those situations.
    But he also pointed out that relying on this `intense 
personal involvement' by the Secretary of Defense just does not 
work. There is not enough time in the day. So we have to, I 
think, together with the Department of Defense create 
structural changes that enable this rapid deployment and rapid 
support of our troops in the field. That is where your advice 
comes in very critically.
    Goldwater-Nichols was enacted more than 30 years ago, and 
the Department continues to face difficulties to provide for 
the warfighter. That again is the essence of what we are all 
here to do, provide a process, an organizational structure, and 
a culture that delivers the support to the troops they need to 
protect the country.
    Again, let me thank you, gentlemen, not only for your 
testimony but for your service.
    Thank you, Mr. Chairman.
    Chairman McCain. I thank the witnesses and we will begin 
with you, Secretary Donley.

 STATEMENT OF SECRETARY MICHAEL B. DONLEY, FORMER SECRETARY OF 
                         THE AIR FORCE

    Mr. Donley. Thank you, Mr. Chairman and Ranking Member 
Reed, for holding this series of hearings. It has been a little 
over 30 years since I left this committee as a professional 
staff member and it is great to back.
    While I was here, I did have any opportunity to work on 
Goldwater-Nichols and then, following my service here, went to 
the National Security Council where I also worked on these 
issues. So they are of special interest to me.
    The hearings that the committee held in the mid- 1980s on 
Goldwater-Nichols were extremely formative in my career in 
educating me and I think other staff members of the committee 
on the operation of the Department of Defense. It stuck with me 
all these years. It has been of great benefit. I hope that one 
result of this great series of hearings that you have kicked 
off is that it will stimulate a deeper understanding of how our 
defense organization works.
    My testimony today--by the way, this is a great panel to be 
part of, and I am honored to be here with General Flynn and 
longtime friend, General Jones, who I think when I was here 
before we referred to as Major Jones. It was Captain McCain. 
That goes way back, Mr. Chairman.
    Chairman McCain. He was much more pleasant in those days.
    [Laughter.]
    Mr. Donley. My testimony today is focused on the roles and 
relationships between the military departments and combatant 
commands and how and where these components interact to produce 
warfighting capabilities. I offer six recommendations for 
reducing resource-intensive military department and combatant 
command headquarters and better preparing joint and service 
headquarters for the demanding 21st century environment that 
you described, Mr. Chairman.
    The context for my recommendations is section 346 of the 
just-signed fiscal year 2016 National Defense Authorization Act 
in which the committees require DOD [Department of Defense] to 
report on planned reductions to its major headquarters 
activities by March of next year.
    The services interact with combatant commands in many ways 
on many levels to support joint operations. I would highlight 
two, command relationships and resource allocation, as 
representative of how services and COCOMs [combatant commands] 
interact to support warfighters of today and tomorrow.
    Command relationships are at the intersection of how 
combatant commands choose to organize their subordinate 
commands and how services internally organize and present 
forces. In general, regional combatant commands choose to 
organize forces in land, maritime, and air domains within their 
assigned area, but both the regional and functional combatant 
commands also task organize with subunified commands or task 
forces for subregions, specific missions, or functions.
    The services, of course, have major commands and 
subordinate commands such as numbered air forces, fleets, 
corps, armies, which are dual-hatted as components of the 
combatant commands. The services need to create internal 
command arrangements that satisfy both efficiency in their 
administrative command and organize train and equip 
responsibilities and effectiveness in their presentation of 
forces and in satisfying the operational command requirements 
as defined by nine combatant commanders. This intersection 
between the command relationships of four services and nine 
combatant commands is critical to the proper alignment of 
service forces under a unified command and it is directly 
pertinent to congressional and DOD interests in improving the 
efficiency of DOD's major headquarters.
    So my first recommendation is that DOD and Congress review 
the service and combatant command relationships, but there are 
four important caveats here.
    First, we should avoid generalizations. These command 
relationships are unique to each service and each combatant 
command.
    Second, we probably should not assume that complex command 
arrangements reflect duplicative or unnecessary staff. You have 
to look. Dual-hatting, even triple-hatting where allied forces 
might be involved, makes good sense.
    Also, we should not assume that opportunities for major 
savings might result. We need to review and take stock of 
previously harvested savings and efficiencies that have been 
taken by the services over the past several years.
    I do have a predilection that Congress should not legislate 
command relationships at this level.
    In resource allocation, executing roughly 80 percent of DOD 
resources, the services have to balance the size and capacity 
of their forces across multiple combat elements with the 
readiness of today's forces and investment in future 
capabilities. Combatant commands express their needs through 
multiple channels in the planning, programming, budgeting, and 
execution system, which is DOD's primary resource allocation 
process. These include their service components, integrated 
priority lists, and through the integrating role of the 
Chairman of the Joint Chiefs of Staff and the Joint Staff J-8 
and the Joint Requirements Council. These responsibilities and 
organizational relationships established in DOD's key 
management processes ensure there is joint input and review in 
service resource allocation and acquisition. They provide 
combatant commands the necessary link and voice, but they are 
also intended to keep combatant commands focused on their 
deterrence, warfighting, planning, and engagement 
responsibilities minimizing the need for combatant command 
headquarters to have large programming staffs duplicating the 
work of their service force providers.
    At the same time, the combatant commands need J-8 functions 
to interact with the joint staff and the services on matters 
related to program evaluation and resource allocation. The size 
and scope of combatant command J-8's will vary according to the 
command's mission and especially so for the functional 
commands, SOCOM [United States Special Operations Command], 
STRATCOM [United States Strategic Command], and TRANSCOM 
[United States Transportation Command].
    In reviews of major headquarters, I recommend that DOD and 
Congress review the purpose and size of these combatant command 
J-8 functions to ensure they are not duplicating program and 
resource activities that are primarily the responsibility of 
others.
    For reasons outlined in more detail in my testimony, I do 
not believe we need to establish more services. In response to 
new technologies or the need for new capabilities, I would 
observe that creating new staff organizations, agencies, and 
command arrangements has thus far proven to be more attractive 
and flexible over time.
    However, I do believe the existing service headquarters 
could be more effective and efficient, and I support the 
consolidation of the secretariat and service staffs within each 
military department.
    Current arrangements have a long history and a benefit of 
strong alignment with the existing structure of a separate OSD 
[the Office of the Secretary of Defense] with its under 
secretaries and joint staff with a common military staff 
structure. Nonetheless, the abiding presence of two staffs in 
the same headquarters, three in the Department of the Navy, has 
periodically been a source of both tension and confusion both 
internally within the respective services and externally to 
those with whom the services interact. It is duplicative in 
several areas and generally inefficient.
    Consolidation of military department headquarters staffs 
has been in the `good idea but too hard' box for many years and 
it will require a careful approach. It has a long history with 
great potential for missteps. Congress should take a deliberate 
approach, provide time for the services to carefully prepare 
legislative proposals and take a close look at the details 
before signing up to the concept. As much as possible, Congress 
should also provide for uniformity across the military 
department headquarters, as was done in Goldwater-Nichols, 
while accommodating the special circumstances of two services 
in the Department of the Navy.
    With respect to combatant commands, I have views on the 
current unified command plan but no recommendations for 
increasing or decreasing the number or type of commands except 
to note that for the past 15 years it appears that DOD has been 
self-limiting the total number of such commands at about nine 
to ten.
    Taking the number and type of combatant commands as roughly 
correct, I believe the preferred way to manage them is to 
maintain close control over their assigned forces and low-
density/high-demand assets and how well these commands' staffs 
are resourced. Congress should expect DOD to carefully review 
the size of combatant command headquarters and each of their 
staff directorates and make choices on which to staff more or 
less robustly according to their mission and current needs.
    Sizing decisions for staff directorates need to accommodate 
differences in combatant command missions and between the 
combatant commands and other components. In addition to the 
differences in the J-8 functions that I mentioned, the 
combatant command J-1 personnel office, for example, performs a 
substantially smaller and more discrete personnel function than 
you find in military departments.
    Finally, any review of combatant command headquarters 
should ensure that all of these commands maintain sufficient 
resources to support their core capabilities for planning and 
executing joint operations.
    Joint intelligence operation centers and regional centers 
for security studies such as the Marshall Center in EUCOM 
[United States European Command] and the Asia-Pacific Center in 
PACOM [United States Pacific Command] also deserve close 
attention. These are subordinate components or direct reporting 
units, technically not part of the combatant commands' 
headquarters, but nonetheless resource-intensive elements 
within the commands' scope of responsibilities.
    I strongly support the alignment of these intelligence and 
security study centers within their respective commands, but 
due to their size, I recommend that they be revalidated as 
necessary and appropriate in combatant commands.
    More important, Mr. Chairman, than how many or what type of 
commands DOD has is how well they work together, which is a 
matter of increasing urgency given the current security 
environment. Today's environment requires us to take joint 
commands to new levels of operational competency, including 
more coordination and collaboration with U.S. Government 
agencies and increasing collaboration with international 
partners and allies. We need to move in these directions if 
possible without increasing the total number of personnel in 
combatant command headquarters.
    I recommend that DOD and Congress support the evolution of 
combatant command headquarters to accommodate these increasing 
requirements.
    We also need to recognize that in this environment, cross-
domain, cross-regional, and cross-functional operations put 
higher demands on our ability to integrate the work of multiple 
combatant commands, further complicating the web of supported 
and supporting command relationships. In this context, the U.S. 
needs to enhance strategic planning for global operations in 
which multiple regional and functional commands will be 
operating simultaneously. In the midst of this demanding 
environment, we need robust gaming, joint training and 
exercises across combatant commands that will facilitate the 
test and evaluation of new operating concepts and validate 
plans.
    In the aftermath of disestablishing JFCOM [Joint Forces 
Command], I recommend that Congress ask DOD what it has in 
place as the mechanisms and resources for joint 
experimentation.
    We must also act to ensure the necessary responsibilities, 
authorities, and resources are in place for the Chairman of the 
Joint Chiefs to effectively integrate the combatant commands' 
planning activities on a dynamic and global basis.
    I recommend that this committee and DOD work together to 
ensure the responsibility for development of strategic 
integrated planning across all combatant commands is properly 
assigned with the necessary authorities and resources to 
support this work.
    Mr. Chairman, Congress should partner with DOD in all this 
work and choose carefully and jointly to set priorities to 
generate mutual confidence and enhance prospects for successful 
implementation of any resulting reforms. Not all improvements 
require statutory changes, and many opportunities for 
improvement fall within DOD's existing authorities.
    There will always be a need for greater efficiency in DOD, 
and I commend the DOD leadership and Congress for keeping up 
this pressure. Transferring the savings from headquarters 
efficiencies and other reforms to combat capabilities is a 
model we should pursue, but we should also keep in mind that 
these savings and efficiencies alone will not close the 
business case. To meet the demands of the current strategic 
environment and support the warfighters today and tomorrow, DOD 
will need more resources and flexibility to sustain and in some 
areas increase capacity to rebuild readiness and to modernize 
the force.
    Mr. Chairman, thank you for this opportunity to present my 
views. Again, thank you for this important series of hearings 
that you have kicked off. I look forward to your questions.
    [The prepared statement of Mr. Donley follows:]

                Prepared Statement by Michael B. Donley
            supporting the warfighter of today and tomorrow
    Thank you, Chairman McCain and Ranking Member Reed for holding this 
series of hearings. My testimony will focus on the roles and 
relationships between Military Departments and the Combatant Commands, 
and two areas--command arrangements and resource allocation--where 
these components interact to produce warfighting capabilities. I 
suggest specific areas for DoD and congressional review and also offer 
other recommendations for reducing resource intensive Military 
Department and Combatant Command headquarters, and better preparing 
joint and Service headquarters for the demanding 21st century security 
environment. The context for these recommendations is Section 346 of 
the FY16 National Defense Authorization Act, which requires DoD to 
report on planned reductions to its major headquarters activities by 
March, 2016.
                          military departments
    The role of Military Departments is to recruit, organize, train, 
and equip (OT&E) forces for assignment to Combatant Commands. The three 
Military Departments, composed of four Services, are organized around 
the land, maritime, and aerospace domains. \1\ These are DoD's largest 
operating components with the longest history and they serve as the 
foundation for the U.S. military--the places from which the full scope 
of military capabilities are derived and sustained.
---------------------------------------------------------------------------
    \1\ For simplicity, this paper will hereafter refer to Military 
Departments as ``Services'' and summarize their common functions as 
``OT&E'' responsibilities. Descriptions of component responsibilities 
are from Title 10, U.S. Code, and DoD Directive 5100.01, Functions of 
the Department of Defense and Its Major Components, December 2010.
---------------------------------------------------------------------------
    In the broader scheme of defense organization, the Services 
maintain critical relationships with OSD and the Joint Staff, DoD's two 
staff components whose broad purpose is to advise the Secretary of 
Defense on strategic direction of the armed forces. The Services must 
also maintain relationships with the 28 Defense Agencies and DoD Field 
Activities that provide centralized support. \2\ In these 
relationships, the Services are both customers of such agencies, and 
also providers of uniformed personnel and other resources to those same 
agencies. Most importantly, the Services must maintain close 
relationships with the warfighters, the nine Combatant Commands that 
conduct joint operations with forces assigned by the Secretary of 
Defense from the Services.
---------------------------------------------------------------------------
    \2\ This paper will hereafter refer to these collectively as 
``Defense Agencies''.
---------------------------------------------------------------------------
    Service Strengths and Weaknesses. The Services are the primary and 
best sources of expertise on their respective domains of warfare; on 
the training and readiness status of their forces; on force and weapon 
system capabilities and limitations; and on tactics, techniques, and 
procedures for force and weapon system-level employment. They are 
essential sources of advice for Combatant Commanders charged with 
integrating the best mix of capabilities to fulfill their assigned 
missions, and all DoD components depend on the Services' deep 
institutional knowledge and technical expertise.
    In programming and executing roughly 80% of DoD's budget, the broad 
scope of the Services' OT&E responsibilities and military functions 
provides the first level of integration in assessing the appropriate 
balance of capabilities and resources. This includes the size and 
composition of the force (i.e. multiple military functions and force 
elements) and the balance between today's readiness and investments for 
the future. Given the resources available, it is the Services that must 
balance capacity across military functions, among and between active 
duty and reserve components, between personnel and equipment, between 
combat and support elements, between training and readiness and quality 
of life, and between current operations and acquisition of new 
technology for the future. All must be considered, weighed, and 
provided for in proper balance.
    Despite the central role of the Services in defense organization, 
DoD is so large and complex that, institutionally, the Services can be 
lacking in joint or defense-wide perspectives. For example, Service 
personnel sometimes lack a full appreciation for the role of Defense 
Agencies, seeming to overlook that this is where they get their 
Intelligence support, fuel to operate their equipment, health care, 
education for their children in remote locations, and their paycheck, 
among other things.
    More importantly, the Services often lack the ability to convince 
each other that, as a Service, they can impartially and effectively 
lead other Services in joint activities, or perform defense-wide roles 
as executive agents for the Secretary of Defense. Goldwater-Nichols' 
emphasis on joint education and joint experience as preconditions for 
advancement to senior assignments, and over 30 years of combat 
experience under joint commands, have done much to strengthen joint 
perspectives in the Services, but not so much that effective joint 
operations could be assured if there were no Unified Combatant 
Commands.
military departments and combatant commands: supporting the warfighter 
                         of today and tomorrow
    The role of Combatant Commands is to provide authoritative 
direction and exercise command over assigned forces to carry out 
assigned missions. This includes authoritative direction over all 
aspects of military operations, joint training, and logistics; and 
prescribing command relationships, assigning functions to subordinate 
commanders, and employing assigned forces. DoD's nine Combatant 
Commands include six regional commands (NORTHCOM, SOUTHCOM, PACOM, 
EUCOM, CENTCOM, and AFRICOM) and three functional commands (TRANSCOM, 
STRATCOM, and SOCOM).
    Combatant Commanders are in the operational chain of command, which 
runs from the President to the Secretary of Defense, and from the 
Secretary of Defense to the Combatant Commanders. The Chairman, JCS, 
among other roles, transmits communications to and from the President 
and Secretary of Defense to the Combatant Commanders, and vice versa. 
The CJCS also oversees the Combatant Commands and serves as their 
spokesman, especially on the operational requirements of their 
commands.
    The Services interact with Combatant Commands in many ways on many 
levels to support joint operations. I would highlight two--command 
relationships and resource allocation--as representative of how 
Services support the warfighters of today and tomorrow.
    Command Relationships are at the intersection of how Combatant 
Commands choose to organize subordinate commands, and how Services 
internally organize and present forces.
    In general, regional Combatant Commands choose to organize forces 
in Land, Maritime, and Air domains within their assigned area; but both 
regional and functional Combatant Commands also task organize, with 
sub-unified commands or task forces for sub-regions, specific missions 
or functions.
    Within the Air Force, Major Commands (MAJCOMs) exercise 
administrative command of Service forces in a regional or functional 
area, overseeing inter alia assigned units and personnel, training, 
logistical support, installations and housing, programming and budget 
execution, and administration of military justice. MAJCOMs may also be 
designated as component commands of the Combatant Commands, presenting 
a single face and administrative command structure through which to 
provide forces. For example, AF Special Operations Command is also the 
AF component command to SOCOM.
    Within the MAJCOMs, Numbered Air Forces (NAFs) provide the 
operational level of command that are often designated or assigned 
joint operational responsibilities by the Combatant Commander. Within 
Pacific Air Forces, for example, the Commander, 5th AF is dual-hatted 
as the Commander, United States Forces, Japan. Within AF Space Command, 
the Commander, 14th AF is designated by STRATCOM as the Joint 
Functional Component Commander for Space.
    These ``dual-hatting'' relationships make great sense as an 
efficient way to bridge the Service and Combatant Command command 
elements. At the same time, they deserve close scrutiny to ensure there 
is no unnecessary layering or duplication and, within the Services, 
that MAJCOM- and NAF-equivalent responsibilities are well-defined.
    Secretary Gates' 2011 mandate for greater efficiencies spurred the 
Air Force to re-examine its headquarters overhead at all levels, 
including the Secretariat and Air Staff, MAJCOMs, NAFs, and down to the 
Wing level.
    Numerous reductions and realignments were made in the Secretariat 
and Air Staff, and some functions were moved to Field Operating 
Activities or assigned to MAJCOMs, with overall net reductions in 
personnel.
    Personnel management functions at the Wing and MAJCOM levels were 
moved and consolidated within the Air Force Personnel Center. MAJCOM 
installation support functions, along with separate services, 
contracting, and engineering agencies, were moved and consolidated in a 
new AF Installation & Mission Support Center attached to Air Force 
Materiel Command.
    NAFs were restructured, focused in part on situations where MAJCOM 
and NAF headquarters were co-located. As a result, PACAF and USAFE 
eliminated 13th and 17th AF respectively, realigning their functions 
within the MAJCOM headquarters with a net reduction in personnel and 
general officer billets. These changes were coordinated with the 
respective Combatant Commanders to ensure consistency with the 
Commanders' organizational scheme for subordinate commands.
    The Air Force also consolidated various ISR units and intelligence 
support activities into a new NAF - 25th AF, assigned to Air Combat 
Command, providing better, cleaner force presentation to all Combatant 
Commands and the Intelligence Community for ISR support.
    All these changes resulted in net personnel reductions enabling the 
AF to achieve an overall 20% reduction in its major headquarters 
activities as one part of the 5-year, $34 billion in AF efficiencies 
achieved under Secretary Gates' initiative.
    In summary, the intersection of Service and Combatant Command 
command relationships is critical to the proper alignment of Service 
forces under unified command. The Services need to create internal 
command arrangements that satisfy both efficiency in their 
administrative command and OT&E responsibilities, and effectiveness in 
their presentation of forces and in satisfying the operational command 
requirements as defined by the nine Combatant Commanders.
    Reviewing this intersection between the command relationships of 
four Services and nine Combatant Commands is very pertinent to 
Congressional and DoD interest in improving the efficiency of DoD's 
major headquarters activities.

        Recommendation: DoD and Congress review Service and Combatant 
        Command command relationships, with four important caveats. 1) 
        Avoid generalizations: command relationships are unique to each 
        Service and Combatant Command. 2) Don't assume that complex 
        command arrangements reflect duplicative or unnecessary staff: 
        dual-hatting (even triple-hatting where allies are involved) 
        often makes good sense. 3) Don't assume opportunities for major 
        savings: review and take stock of previously harvested savings 
        and efficiencies. 4) Congress should not legislate command 
        relationships.

    Resource Allocation: Balancing Today's Readiness and Tomorrow's 
Capabilities. Warfighter needs are expressed through multiple channels 
in the Planning, Programming, Budgeting, and Execution (PPBE) system- 
DoD's primary resource allocation process. For example, Combatant 
Commands express needs through Requests for Forces (RFFs), Integrated 
Priority Lists (IPLs), and Joint Urgent Operational Needs (JUONs), and 
occasionally in less formal submissions as well. Service component 
commanders and staff bring insights into the Combatant Commands' force 
and capability requirements from their Service and, in effect, advocate 
for the Combatant Commanders' needs in developing the Service's annual 
Program Objectives Memorandum (POM).
    At the DoD level, the Chairman, Joint Chiefs of Staff is charged 
with integrating the Combatant Commanders' needs, serving as their 
spokesman; preparing resource constrained strategic plans; advising the 
Secretary of Defense on strengths and deficiencies in force 
capabilities, force and capability requirements; and (when necessary) 
providing the Secretary with alternative program and budget 
recommendations that would better conform to Combatant Command needs. 
The Chairman does this through various channels, including the Joint 
Staff Directorate for Force Structure, Resources, and Assessment (J-8), 
a critical link with OSD's Director of Cost Assessment and Program 
Evaluation (CAPE) as OSD and the Joint Staff together review Service 
program and budget proposals in the PPBE process.
    Among the critical resource allocation choices for the Services are 
those between the capacity and readiness of today's forces, and 
investing in more modern capabilities for the future; and Combatant 
Commands are customers for both.
    To the extent today's needs are not being met due to shortages 
(e.g. Low Density / High Demand (LD/HD) forces), Combatant Commands 
favor building more capacity, because more capacity would increase 
their prospects for receiving more assigned forces, and for mission 
success. Combatant Commanders also expect that forces assigned from the 
Services are ready, not lacking in training or sustainability; and that 
the Services will fulfill this obligation. Especially in the current 
strategic environment, where there are multiple on-going operations and 
high demand for forces, sustaining capacity and readiness are urgent 
Combatant Command needs.
    To the extent Combatant Commands can see and understand the 
benefits of future capabilities or technologies, they favor their 
development and acquisition. But here, the Combatant Commands are 
largely dependent on the connectivity between their Service components, 
Service R&D elements, and the Defense Advanced Research Projects Agency 
(DARPA) to keep them informed of emerging technologies and their 
potential benefit to future operational capability. Combatant 
Commanders and staffs also understand that the Services and DARPA may 
be seeking their endorsement for new programs to gain advantage in the 
broader competition for scarce resources. As new technologies mature, 
the Joint Requirements Oversight Council (JROC) and its link with the 
USD(AT&L) in the acquisition process, provide additional Joint input 
during review of Service-proposed procurement programs.
    The bottom line, however, is that while Combatant Commands play an 
important role in setting demand signals by defining force and 
capability requirements, and are consumers of ready forces, strategic 
decisions on how to allocate resources and risks ultimately belong to 
the Secretary of Defense based on the advice of his OSD principal staff 
assistants and military advisors (i.e. the CJCS/JCS/Joint Staff), and 
the Services' senior civilian leadership.
    Overall, DoD's ability to support the warfighters of today and 
tomorrow is dependent on sufficient appropriations from Congress. But 
in the context of roles and functions across DoD's major headquarters 
activities, these assigned responsibilities and the organizational 
relationships established in DoD's key management processes ensure 
there is joint input and review in Service resource allocation and 
acquisition. They provide Combatant Commands a necessary link and 
voice, but are also intended to keep Combatant Commands focused on 
their deterrence, warfighting, planning, and engagement 
responsibilities, minimizing the need for these headquarters to have 
large programming staffs duplicating the work of their Service force 
providers.
    At the same time, the Combatant Commands need J-8 functions to 
interact with the Joint Staff and Services on matters related to 
program evaluation and resource allocation. The size and scope of 
Combatant Command J-8s will vary according to the command's mission, 
and especially so for the functional commands--SOCOM, STRATCOM, and 
TRANSCOM.

        Recommendation: In review of major headquarters activities, 
        recommend DoD and Congress review the purpose and size of 
        Combatant Command J-8 functions to ensure they are not 
        duplicating program and resource activities that are the 
        primary responsibilities of others.

  other issues concerning military departments and combatant commands
    Do We Need to Establish New Services for Space, Cyber, or Special 
Operations? Periodically, it is asked whether we need to create new 
Services in response to a rapidly changing technology and security 
environment. There is no agreed test or threshold for establishing a 
new Service, nor is there a clear and consistent history that suggests 
when this organizational option is appropriate. In 1947, for example, 
the Department of the Air Force was established in response to 40 years 
of rapid, astonishing advances in aviation technology and the 
progressive growth and evolution of air doctrine, culture, and 
organization within the U.S. Army. But there was no new Service created 
with the discovery of nuclear fission, or when further advances in 
aviation and missile technology opened up the domain of space.
    Institutional responses to new threats or technology can take many 
forms. Important factors to consider might include:

    <bullet>  Maturity of the mission / function / domain and readiness 
to assume the full scope of OT&E functions performed by the Services 
(e.g. doctrine, training, logistics, infrastructure, R&D, Procurement, 
etc.)

    <bullet>  Relative size in personnel needs / resources--Does this 
exceed the capabilities, or is it overwhelming other military 
functions, of the existing Service host(s)? And,

    <bullet>  Whether this activity can be separated out of the 
Services without disrupting their ability to fulfill other assigned 
functions.

    Often, the motivation for a new component is more attention and 
more money: the belief that a new component out from under its current 
host, reporting directly to the Secretary of Defense, would be more 
likely to get the management attention and resources perceived by its 
advocates as essential to a new, important area.
    The arguments in favor of a new Service would be that it requires 
dedicated, component-level focus, resources, and leadership for 
critical capabilities that would otherwise receive insufficient 
attention within a larger component with multiple responsibilities. As 
a central feature of DoD's organizational design, however, 
establishment of a new Service has been and should remain a very high 
threshold, and we should consider all the alternatives.
    If the needs related to this activity were oriented toward the 
integration of its warfighting elements, then new command arrangements 
in the joint system might be a better solution. Alternatively, where 
new, emerging needs are focused on supporting capabilities and more 
efficient resource management with more business and less military 
content, then a Defense Agency might be an appropriate course of 
action. Importantly, whatever structural or organizational solution(s) 
are considered best, linkages with the roles and responsibilities of 
other DoD staffs and components should be identified, de-conflicted, 
and made clear.
    Given the current management and resource environment, however, I 
find the arguments opposing new Services more persuasive. Further sub-
division of the four Services to create another Service would yield 
more headquarters, duplicating OT&E and staff functions already 
provided for; and each new component further complicates the 
coordination required among and across DoD's approximately 45 
components. Any new Service would further spread scarce budget 
resources across more organizations and weaken integrated decision-
making. This would further complicate the work of DoD leadership, 
pushing more resource tradeoffs upwards to the Secretary and Deputy 
Secretary of Defense.
    In each of the cases at issue (space, cyber, and special 
operations), DoD has made reasonable choices focused on the integration 
of warfighting capabilities, creating joint command arrangements and 
leaving the development of capabilities and OT&E responsibilities to 
the four Services.
    Creation of a new Service seems a deeper, more expensive, and more 
permanent commitment. In recent practice, in response to new 
technologies or the need for new capabilities, creating new staff 
functions, agencies, and command arrangements has thus far proven to be 
more attractive and flexible over time.
    Can the Services be operated more effectively and/or efficiently? I 
support consolidation of the Secretariat and Service staffs within each 
Military Department to promote greater effectiveness and efficiency.
    Current arrangements have a long history and the benefit of strong 
alignment with the existing structure of a separate OSD and Joint Staff 
at the DoD level, with their undersecretaries and a common military 
staff structure, respectively. Nonetheless, the abiding presence of two 
staffs in the same headquarters (three in the Department of the Navy) 
has periodically been a source of both tension and confusion, both 
internally within the respective Services, and externally to those with 
whom the Services interact. It is duplicative in several areas and, 
generally, inefficient.
    Various recommendations for reduction or elimination of staff 
duplication in the Service headquarters were proposed by the 1960 
Symington Committee, the 1970 Blue Ribbon Defense Panel, and the 1978 
Ignatius Report. During the consideration of Goldwater-Nichols, House 
legislative drafts favored the integration of Service headquarters 
while the Senate opposed it; and the final agreement left separate 
staffs intact with some changes. The 1995 Commission on Roles and 
Missions of the Armed Forces concluded that Service Secretaries and 
Chiefs would be better served by a single staff of experienced 
civilians and uniformed officers; and the 2004 CSIS Beyond Goldwater-
Nichols Phase 1 Report echoed this recommendation.
    Some useful changes have been made without legislation. Indeed, 
current law provides some flexibility for Service Secretaries to assign 
and/or move functions between the two staffs. Since 2002, the Army has 
sought a closer integration of its two headquarters staffs through 
General Orders. A recent Air Force decision to move it's A-8 
programming function to the Assistant Secretary for Financial 
Management was a sensible step that closed a seam between programming 
and budgeting databases--providing more coherence and efficiency in 
resource allocation and budget execution. However, more fundamental 
changes offering greater effectiveness and efficiency will require 
changes in law.
    Consolidation of the Service headquarters staffs within individual 
Military Departments would help eliminate some unnecessary or counter-
productive seams. For example, separation of the Secretariats' 
Acquisition functions from Service staffs' Logistics functions runs 
counter to sound life-cycle management for weapon systems. In this 
instance, staff consolidations could potentially present a single 
Service office to interact with the USD(AT&L), and with the Services' 
own major commands which perform both acquisition and logistics 
functions. Another example is the unnecessary effort to distinguish 
policy and oversight in the Secretariats from Service staffs' 
management of nearly identical functional areas of responsibility, such 
as Assistant Secretaries for Manpower and Reserve Affairs, and Deputy 
Chiefs of Staff for Personnel.
    Historically, when the subject of consolidation has arisen in the 
past, the civilian appointees are concerned the military staff is 
trying to eliminate the Secretariat, and the uniformed military is 
concerned the presence of civilian appointees in a single staff will 
interfere with what they perceive as a clear command chain within the 
military Service staff. The results have been strained civil-military 
relations and only limited progress toward greater efficiency.
    Going forward, once again considering consolidation, Congress could 
increase the prospects for success by sustaining the principles of 
effective civilian control and independent military advice and ensuring 
Service Secretaries and Chiefs of Staff have universal access to all 
elements of the single headquarters staff.
    The system of civilian Service secretaries and assistant 
secretaries should be retained because they are net value added to the 
Secretary of Defense and to the Service headquarters. While it is true 
that the Secretary of Defense exercises civilian control through 
delegated authority to Under Secretaries of Defense and other OSD 
officials in various functional areas, none of these Under Secretaries 
has the full scope of responsibilities necessary to oversee a Military 
Department. Working together in the most optimistic circumstances, 
these OSD officials bring many disparate views to the table. In short, 
I do not believe the Secretary of Defense can exercise effective 
civilian control over Military Departments through the OSD staff alone.
    Based on my experience in both OSD and the Air Force, the size and 
scope of the Military Departments and the issues that arise within them 
warrant a parallel structure of civilian control in OSD and the 
Services. Ensuring the Secretary of Defense's direction and intent is 
understood and implemented at the Service level, overseeing the 
promotion and assignment of senior personnel, overseeing resource 
allocation and program execution, and holding senior civilian and 
military officials accountable for their performance and conduct are 
among the leadership functions that benefit from strong civilian 
control within the Military Department headquarters.
    Provide the Service Chief unfettered access to any and all Military 
Department headquarters staff for the purpose of developing military 
advice as a member of the Joint Chiefs of Staff. This is an essential 
element of any Service headquarters consolidation and can be 
accomplished through a legislative provision to that effect. 
Specifically, it would ensure that the Service chief would have access 
to military personnel within any staff function without interference, 
regardless of whether such function is led by an Assistant Secretary or 
another senior civilian. In practice, this should present no issue 
since the Plans and Operations functions on the military staff have no 
counterpart in the Service Secretariats and would likely continue to be 
led by General/Flag Officers.
    Maintain a Mix of Appointees, Uniformed Personnel, and Career 
Civilians. In addition, it is important to recognize that creating a 
single headquarters staff is not a choice between civilian or military 
staffs. The Secretariats include many uniformed officers, including 
senior officers in functions designated in law as the sole 
responsibility of the Secretary--for example, Acquisition, Financial 
Management, Legislative Affairs, and Public Affairs. Likewise, the 
military staff contains Senior Executive Service civilians who provide 
deep expertise and continuity, compensating for the high personnel 
turnover associated with military rotations. Civilian appointees bring 
different and useful DoD, congressional, or industry experience and 
skill sets, currently atypical in a military career, that complement 
those of uniformed leaders and career civilians.
    In my experience, the Service Secretary benefits from a strong 
partnership with the Service Chief, and the Service Chief benefits from 
having a strong civilian partner in the Service Secretary. Overall, the 
Service headquarters benefits from this mix of political appointees, 
uniformed personnel, and career civilians.
    Consolidation of Military Department headquarters staffs has been 
in the ``good idea, but too hard'' box for many years and will require 
a careful approach. It has a long history and great potential for 
missteps. Congress should take a deliberate approach, provide time for 
the Services to carefully prepare legislative proposals, and take a 
closer look at the details before signing up to the concept. Congress 
should, as much as possible, also provide for uniformity across the 
Military Department headquarters as was done during Goldwater-Nichols, 
while accommodating the special circumstances of two Services in the 
Department of the Navy.

        Recommendation: Consolidate Military Department headquarters 
        staffs as proposed to help improve unity of effort, 
        effectiveness, and efficiency; and present a single Service 
        headquarters structure to the field. Retain the benefits of 
        strong civilian alignment with OSD and military alignment with 
        the Joint Staff and other military staffs.

    Does DoD Need More, or Fewer, Combatant Commands? The U.S. military 
needs Unified Combatant Commands. Over 60 years of combat experience 
has proven that no single service can conduct effective operations 
without assistance from others, and more recent experience demonstrates 
that 21st century warfare crosses multiple domains and regions.
    Moreover, we have tried the alternatives. Experience showed that 
``specified'' combatant commands led by a single service (e.g. 
Strategic Air Command and Military Airlift Command) did not produce 
sufficient integration of effort and, of necessity, needed to evolve to 
a higher, unified level. Ad hoc task forces for multi-service 
operations did not work as well as joint commands with trained staffs 
and a full-time focus on joint force integration (e.g. the evolution 
from Rapid Deployment Force to Rapid Deployment Joint Task Force to 
CENTCOM).
    Current concerns are focused on the number of Combatant Commands 
and the size of their headquarters staffs.
    Service Chiefs, as members of the JCS, have important roles to play 
in weighing the pros and cons of new joint commands and advising the 
Secretary of Defense. This is because any new Combatant Command will 
need to be staffed by personnel from across the Services. In addition, 
the Services act as Executive Agents for Combatant Command headquarters 
with responsibility for funding and administration of these activities 
on Service installations. \3\ In this sense, the Services act as an 
internal brake on unconstrained growth in the joint system.
---------------------------------------------------------------------------
    \3\ DoD Directive 5100.3, Support of the Headquarters of Combatant 
and Subordinate Unified Commands, February 2011.
---------------------------------------------------------------------------
    Informally, it appears DoD has been limiting its Unified Command 
Plan (UCP) to around 9-10 commands. The post 9/11 creation of NORTHCOM 
in 2002 was part of a restructuring that disestablished SPACECOM and 
assigned space functions to STRATCOM, resulting in no net increase in 
the number of commands. Importantly, other 2002 UCP changes included 
the assignment of countries previously outside the purview of any 
regional command; thus for the first time providing the UCP with global 
coverage.
    In considering whether to split-off Africa from EUCOM's area of 
responsibility and find the resources for a new headquarters, the 
creation of AFRICOM in 2008 was `on the cusp'. With continuing 
instability in the horn of Africa, the emergence of Al Qaida-affiliated 
groups in the Maghreb, a growing war on terrorism, and the need to 
develop indigenous African military capabilities, it was clear there 
were multiple political-military issues to address in a new command. 
But it was also clear that a new AFRICOM would not have assigned forces 
(though USSOCOM assets would routinely operate within the region), and 
its headquarters would be different from other commands, staffed with 
more non-military, interagency personnel.
    In 2010, when Secretary Gates' efficiency initiatives included a 
review of joint headquarters, it was determined that the UCP could live 
without Joint Forces Command. Thus, AFRICOM was last ``in'' and JFCOM 
was last ``out''.
    In assessing the future of the six regional commands, I would not 
recommend any changes. It has taken a long time to achieve global 
coverage in a reasonable configuration, which should be considered 
important progress; and adjustments on the boundaries can be expected 
in the normal course of business. The option of merging NORTHCOM and 
SOUTHCOM into an ``Americas'' or ``Western Hemisphere'' command mixes 
very different missions and would dilute necessary focus on the 
homeland. Given the dynamic strategic environment in Europe, it doesn't 
make sense to reverse course and reassign AFRICOM to EUCOM, and the 
United States would pay some political price with new African partners 
if it did so.
    Among the functional commands, CYBERCOM--currently a sub-unified 
command within STRATCOM--appears poised to emerge as the tenth 
Combatant Command. This long-debated development involves highly 
complex relationships between DoD and the Intelligence Community, and 
within the UCP itself. Some of the UCP implications are discussed 
below.
    What changes to the Joint system should be considered? Given this 
perspective that the number and type of Combatant Commands is roughly 
correct, the preferred way to manage them is to maintain close control 
over assigned forces and LD/HD assets, and how well their staffs are 
resourced. Congress should expect DoD to carefully review the size of 
Combatant Command headquarters and each of their staff directorates, 
and make choices on which to staff more or less robustly according to 
their mission and need.
    I would not recommend DoD change, nor Congress legislate, staff 
structure (i.e. J-1 thru J-x). The existing structure provides an 
important, common framework across all military staffs and provides 
basis for communication and process interaction in both operational and 
administrative contexts. Sizing decisions for staff directorates simply 
need to accommodate differences in Combatant Command missions, and 
between the Combatant Commands and other components. In addition to 
differences in the J-8 functions previously discussed, for example, a 
Combatant Command J-1 (personnel office) performs a substantially 
smaller and more discrete personnel function than is found in Military 
Departments. Finally, any such review of Combatant Command headquarters 
should ensure all commands maintain sufficient resources to support 
their core capabilities for planning and executing joint operations.
    Joint Intelligence Operations Centers and the regional centers for 
security studies, such as the George C. Marshall Center in EUCOM, and 
the Asia-Pacific Center in PACOM, also deserve close attention. These 
are subordinate components or direct-reporting units, technically not 
part of the Combatant Commands' headquarters but nonetheless resource-
intensive elements within Combatant Commands' scope of 
responsibilities. I strongly support the alignment of these 
intelligence and security studies centers within their respective 
commands. Nonetheless, due to their size, I recommend they be re-
validated as necessary and appropriate for Combatant Commands.

        Recommendation: DoD and Congress should review the size and 
        composition of each Combatant Command headquarters and their 
        supporting elements.

    Just as President Eisenhower noted in 1958, and Goldwater-Nichols 
later reinforced, that ``Separate ground, sea, and air warfare is gone 
forever . . . '' we should recognize today that single theater warfare 
has been rapidly fading in the shadow of trans-national threats and 
globalization. In addition, new and more demanding roles for Combatant 
Commands have emerged that should be recognized and accommodated.
    More important than how many or what type of commands DoD has is 
how well they work together--a matter of increasing urgency given the 
current security environment.
    Hybrid warfare, constant cyber attacks, and terrorists and non-
state actors with global reach crisscross artificial regional command 
boundaries and keep CYBERCOM and SOCOM continuously engaged in world-
wide operations. Attacks on the United States could well begin in the 
silent domains of space and cyber with effects in NORTHCOM's area of 
responsibility. Regional military commands are but one element in a 
larger fabric of United States Government and international engagement 
and collaboration in meeting contemporary challenges and threats to 
international security.
    The Combatant Commands' role in ``engagement'' has evolved since 
the 1986 enactment of Goldwater-Nichols. They are still responsible for 
integrating joint U.S. combat and support capabilities, but now in 
addition they are serving as senior U.S. military representatives in 
developing international partners and conducting planning for coalition 
operations. This role helps extend the international reach of the CJCS 
in counterpart relations, providing for more regular interaction with 
regional allies and partners at the strategic level, and deeper 
military-to-military relationships in critical areas such as missile 
defense.
    I strongly endorse this role for the Combatant Commanders. Critics 
note the U.S. military can become too dominant in regional affairs that 
more properly belong to the State Department. Where that may occur, the 
answer is not to diminish the military engagement, but to increase 
diplomatic and other interagency capabilities and resources necessary 
to support the full scope of U.S. interests in the region.
    Today's security environment requires us to take joint commands to 
new levels of operational competency, including more coordination and 
collaboration with other U.S. Government agencies, and increasing 
collaboration with international partners and allies. We need to move 
in these directions, if possible, without increasing the total number 
of personnel in Combatant Command headquarters.

        Recommendation: DoD and Congress should support the evolution 
        of Combatant Command headquarters to accommodate increasing 
        collaboration with U.S. Government agencies and international 
        partners.

    We also need to recognize that, in the current security 
environment, cross-domain, cross-regional, and cross-functional 
operations put higher demands on our ability to integrate the work of 
multiple Combatant Commands, further complicating the web of 
``supported- supporting'' command relationships.
    Within the current UCP, STRATCOM, in addition to its foundational 
mission of nuclear deterrence, has multiple global missions/
responsibilities to bring to bear, including Space, Global C4ISR, 
Cyber, Counter-WMD, Global Missile Defense, and Global Strike. Much-
needed, integrated perspectives on how these domains and missions 
should be defended and exploited in today's complex environment are 
still in development. Under current arrangements, while the 
relationships among STRATCOM's many global missions and their 
``supporting-supported'' relationships to other Combatant Commands have 
not been developed to their full potential, these global tools have at 
least been kept in the same Command bag. Thus, any realignment of 
global functions (such as CYBER) away from STRATCOM will create 
additional command seams that will need to be addressed.
    In this context, the U.S. needs to enhance strategic planning for 
global operations in which multiple regional and functional commands 
will be operating simultaneously. In the midst of this demanding 
environment, we need robust gaming, joint training, and exercises 
across Combatant Commands that will facilitate the test and evaluation 
of new operating concepts and validate plans.

        Recommendation: In the aftermath of disestablishing JFCOM, 
        Congress should ask whether DoD has in place the mechanisms and 
        resources for joint experimentation.

    The question arises: who has the responsibility for integrating the 
Combatant Commands' work and do they have sufficient authority and 
resources for this purpose? In my judgment, the Chairman, JCS, in 
coordination with the USD(P), has the responsibility and sufficient 
authority for this work. The Chairman is responsible for overseeing the 
Combatant Commands, for being their spokesman, and for developing 
resource constrained strategic plans. The Chairman establishes rules 
and procedures for the Joint community, including areas such as the 
Joint Strategic Planning System, and Joint Doctrine. The Chairman also 
functions within the chain of command and assists the President and 
Secretary of Defense in their command functions.
    Together, I believe these assigned duties are sufficient for the 
Chairman to coordinate and direct the integration of Combatant Command 
planning; and if not, sufficient authority is only a short distance 
away through a targeted delegation of authority from the Secretary of 
Defense. A contrary view, however, is that the Chairman needs to be in 
the chain of command--requiring a change in law--to exercise this 
authority.

        Recommendation: DoD and Congress ensure the responsibility for 
        development of strategic, integrated planning across all 
        Combatant Commands is properly assigned with the necessary 
        authorities and resources to support this work.
                               conclusion
    I support the consolidation of Service headquarters staffs, and 
reviews of Service and Combatant Command command arrangements, and 
Combatant Command staffs and support components, for greater 
efficiencies. \4\ We must also act to ensure the necessary 
responsibilities, authorities, and resources are in place within the 
joint system to meet the demands of the current security environment.
---------------------------------------------------------------------------
    \4\ While not considered for this hearing, I also recommend close 
review of OSD, Joint Staff, and Defense Agency headquarters.
---------------------------------------------------------------------------
    Congress should partner with DoD in all this work, choose carefully 
and jointly to set priorities, generate mutual confidence, and enhance 
prospects for successful implementation of any resulting reforms. Not 
all improvements require new law, and many opportunities for 
improvement fall within DoD's existing authorities.
    However, the biggest problems in supporting the warfighter are not 
in the headquarters, they are in the corridors of Congress. 
Specifically, the inability of Congress to reach consensus on stable 
funding for defense sufficient to respond to a rapidly changing threat 
environment, improve readiness, and finance badly needed modernization 
across the force; and Congressional opposition to base closures and 
force structure adjustments recommended by military leaders that would 
permit the Services to shift scarce resources to meet changing needs 
and accelerate the acquisition of new capabilities.
    There will always be a need for greater efficiency in DoD, and I 
commend the DoD leadership and Congress for keeping up this pressure. 
There will always be shortages: we have never had the resources needed 
to do everything that prudent and cautious military leaders think 
necessary to do. Transferring the savings from headquarters 
efficiencies and other reforms to combat capabilities is a model we 
should pursue, but these savings and efficiencies alone will not close 
the business case. To meet the demands of the current strategic 
environment and support the warfighters of today and tomorrow, DoD will 
need more resources and flexibility to sustain and in some areas 
increase capacity, to rebuild readiness, and to modernize the force.
    Thank you for this opportunity to present my views.

    Chairman McCain. General Flynn?

STATEMENT OF LIEUTENANT GENERAL MICHAEL T. FLYNN, USA, RETIRED, 
       FORMER DIRECTOR OF THE DEFENSE INTELLIGENCE AGENCY

    Mr. Flynn. Thank you, Mr. Chairman. Chairman McCain, 
Ranking Member Reed, thanks. Great seeing you again.
    I actually was a lieutenant and my first combat experience 
was in Grenada in 1983. So it is interesting that I am sitting 
here today because it was a mess. It was very confusing.
    Thanks for inviting me to participate alongside these other 
great patriots.
    Chairman McCain. Good thing it was not a formidable 
opponent, do you not think?
    Mr. Flynn. Yes. I have a few choice words today for the 
Cubans.
    Anyway, I appreciate sitting aside these two really 
unbelievable patriots of our country and longtime servants and 
to really just offer some thoughts on this defense reform. I 
hope that I offer thoughts that I think that are going to be 
consistent with the other themes that you have already heard 
from other people that have testified, as well as I think today 
maybe I will add a few new ideas.
    In the times that we face and we will likely face in this 
very complex and unpredictable world, addressing defense reform 
is probably the single biggest strategic issue that we must 
deal with, and I believe we have to deal with it immediately.
    The days of large organizations moving at the speed of an 
elephant with bulky, expensive, overly bureaucratic acquisition 
programs with little value to our warfighters and even less 
value to our national security are forever gone.
    Speed is the new big. Innovation is the new norm. The pace 
of change is so stunningly fast, and the Defense Department, at 
least inside the Pentagon, is not capable of meeting the 
demands of future threats.
    Rearranging the deck chairs on this Titanic will only make 
the chairs slide in a different direction on that deck, but the 
ship will still likely sink.
    As you said, Chairman, former Secretary Robert Gates stated 
it best. I think it was in the fall of 2008 is when he said it, 
that the Pentagon is good at planning for war, but on its best 
day cannot fight a war. That has been proven in spades over the 
past decade and a half with few exceptions.
    If the past 14 years of conflict have proven anything, it 
has proven Secretary Gates to be spot-on when it came to making 
that fateful statement.
    Neither our Nation nor the citizens our defense system is 
designed to protect and defend can operate in the future the 
way we operate today.
    I would add that even though a nice glossy and well meaning 
report will come out of this committee, there are people inside 
the Department--and I am serious about this--that are looking 
at your efforts today as a joke and wondering why do you 
bother, nothing will ever change. Please, Chairman and members 
of this committee, please prove them wrong.
    We have forgotten how to win wars because we have lost 
sight of what winning looks like. Instead, we plod along, 
participating in conflict and allowing an overly bulky and 
bureaucratic Department of Defense and a completely broken 
interagency process, led by the White House and rightly so, 
that has choked itself practically to death. It simply does not 
work in support of our warfighting needs today. The President 
in his role as commander-in-chief and the Secretary of Defense 
in his role as leader of our defense establishment are ill-
served. There is no soft or kind way of saying that. In a giant 
organization like the Department of Defense, change is not 
easy. Reforms will take time, and I applaud this committee's 
efforts to give it your best shot.
    At the end of the day, still the budget process and not the 
mission is what truly changes anything in our government. We 
have to reverse that thinking particularly when it comes to 
defense. That is just simply the sad truth. Where the money 
goes, things happen. Despite where that money goes, most times 
has no bearing on our ability to win wars. If you do not get 
any money, you either change or you disappear. If you get 
money, you are able to survive another day.
    My experience comes serving over 33 years in uniform, 12 in 
joint assignments, and nearly 10 of those as a flag officer. I 
have also served many years in combat and have suffered from 
the lack of many capabilities that we needed to fight our 
enemies and found myself fighting the Pentagon as much or more 
than our enemies. The bureaucracy of our lethargic system 
filled with people who depart for the day from their major 
headquarters or from the Pentagon and leave an inbox filled 
with actions to await tomorrow while we were sitting in a 
combat zone waiting for an answer is not a good way to fight a 
war.
    I have many personal examples and personal scars and I have 
witnessed many examples of this in may days deployed to the 
wars primarily in the Middle East and Central Asia. We must and 
can do better for our Nation and for those that serve this 
Nation.
    Today I will highlight a couple of points and provide some 
ideas, and hopefully a few of these are new.
    First, we will never correctly predict the next war. We can 
warn about the many threats that we face, and there are 
numerous and very dangerous threats. You mentioned a few in 
your remarks, Chairman. ISIS [the Islamic State of Iraq and 
Syria] is the latest in a long line of threats to our Nation 
that we must do more to contain, defeat, and ultimately 
eliminate this radical Islamist ideology. There are many more 
threats than this very dangerous enemy.
    Second, the connection between people, processes, and 
systems is completely broken.
    Regarding people, we recruit still using old, outdated 
mechanisms and tools, and then we train people with equipment 
that is aging, not the most advanced even though we, our 
country, has the most advanced technologies available to anyone 
in the world. Bottom line in this regard is our recruiting and 
training are being done with less than stellar rules, tools, 
and advanced capabilities. We can do better.
    We force our warriors to fight wars by forcing them to push 
joint urgent operational needs or urgent needs statements from 
the battlefield up the chain of command. That is no way to 
fight a war. It is reality because our people do not have, they 
do not train with, they do not go to war with the right tools. 
I have seen this numerous times. Essentially they are not 
prepared to go to war with the equipment in our current 
inventories. We have to do better, and as the best military in 
the world, we cannot afford to not look serious to the men and 
women that we are supposed to serve. We do not look very 
professional in the eyes of our international partners, never 
mind our enemies.
    Lastly, we must consider retooling our high-tech training. 
We must radically move from the information age to the digital 
age, and we have to do this quickly. China, for example, has an 
organization of 800,000 cyber warriors, and I highlight this in 
my statement for the record. 800,000 cyber warriors. I was just 
briefed on this about 2 weeks ago at a cyber training event 
that happened out at Camp Dawson, West Virginia. A fantastic 
capability. These 800,000 cyber warriors in China are 
associated with their Department 61398 that we all became 
familiar with when the Mandiant report came out. We are 
struggling in the Department to recruit I think 6,000 within 
our own Department of Defense that Mike Rogers, our great cyber 
commander, has highlighted as a need. That number fluctuates. 
But this is the problem that we are facing. Again, I will give 
you a little bit more information on that number. Something is 
wrong with that picture. Any reform must consider retooling for 
future jobs and not hold desperately to these 20th century 
tools and models that we have.
    On processes, the processes that we use are antiquated and 
usually one war behind, if not more. I went to war in 
Afghanistan the first time based still on airland battle 
doctrine, a doctrine designed for the Cold War, originally 
written in the early 1980s. That doctrine was still being 
trained right up until 2006, 5 years into the war when Generals 
Petraeus and Mattis came out with the counterinsurgency manual 
or counterinsurgency doctrine. We can and must do better. We 
have to either understand the type of war that we are in and 
make the decisions upfront to get to where we need to be.
    But why did it take us nearly 5 years to change our 
doctrine when we were directly engaged in a counterinsurgency 
and counterterrorism campaign? Two reasons are--and there are 
others. Bureaucracy and service parochial infighting are two of 
those. Thank God our superb men, women, soldiers, sailors, 
airmen, and marines and those civilians serving in combat 
innovate better than any other military in the world. When they 
realize that something is broken, they fix it on the 
battlefield instead of using the Pentagon's motto of ``if it is 
broke, let somebody else fix it.'' We still need the money.
    Lastly, the systems we have and the acquisition system that 
drives much of how our services and combatant commanders 
operate may as well be in separate solar systems, and none of 
these, with few exceptions, seem to be anywhere near the 
battlefields we operate on today.
    It is tempting to sit here and beat up those in the 
Pentagon, and that would be unfair. But there are there some in 
our system that see a jobs program, some who have never seen a 
program of record they did not like, and some who abuse the 
system so badly that it makes corrupt governments in the Third 
World nations blush.
    Additionally, after nearly 14 years of war, conflict, call 
it what you will, we are engaged with enemies of our country 
and they want to win. I am not certain we have demonstrated the 
resilience or the fortitude to do the same, at least not yet.
    There are many in the defense system that have yet to 
experience that and do not understand the demands of combat, 
and there others who avoid it wishing it will go away. It will 
not. We, you, Chairman, committee have to fix a number of 
things, but one of the most important is the acquisition 
system, I think has been highlighted by many who have testified 
to this committee. It must be joint and it must include the 
warfighter requirements and not simply serve the service 
chiefs, secretaries, and their constituents' needs. Secretary 
Gates found this, as you highlighted, and fixed it, but to do 
so, he had to become the best action officer in the Pentagon.
    That said, let me list a couple of ideas to consider as we 
go through the rest of this session and as you contemplate what 
steps you need to take forward. I will be prepared to address 
any of these in Q and A.
    Number one, tooth-to-tail ration must change. Reverse it 
before we find ourselves not ready to fight, never mind win. We 
have way too much overhead and our staffs have become bloated 
beyond the nonsense stage.
    Number two, related to the above, we have way too many 
four-stars, commands and otherwise, around the world and too 
many four-star headquarters in each of the services. In terms 
of our warfighting that the Secretary mentioned, we have 11 
warfighting commands if you count USFK [United States Forces 
Korea] as a subcomponent and you count Cyber Command as a 
unified component. 11, not to mention the service four- and 
three- star positions that could easily be reduced a rank or 
cut and the staffs could subsequently be reduced.
    Number three, cut the civilian system in half or more 
because the growth has just been unbelievable. I saw that in my 
own agency looking at 10 years of history before I even took 
over the Defense Intelligence Agency. Turn those dollars into 
readiness and place more tooth into our warfighting forces. Be 
cautious about salami slicing and help the SecDef [the 
Secretary of Defense] and the senior civilian and military 
leaders make the best decisions based on a unified and 
strategic national security vision approved by the President 
instead of slicing to benefit some constituency. You must play 
a role, but very candidly and over many years, Congress created 
much of this mess and now you have an opportunity and I believe 
a responsibility to correct it. So thank you for taking this 
on.
    Number four, we need to seriously look at how we organize 
to fight and win in wars. We man, train, and equip as services, 
i.e., Title 10. We go to war as a joint force, and in general 
Air Force takes the Army, the Marines take the Navy--and again, 
I am generalizing there. But we only win as a coalition. We 
need to determine--in fact, in here I say please name one time 
when we did not fight as a coalition. I mean that, and if you 
go back in our history, even to the days of George Washington.
    So we need to determine if we are creating a force that is 
not only technically qualified but also culturally and 
societally understanding and smart. Language training, for 
example, is something that we need to place greater emphasis on 
for those officers serving in maneuver and operational 
assignments. You know, foreign languages are not just for the 
intelligence community and attaches. For example, maybe we make 
it a prerequisite for combatant commanders to speak a foreign 
language before they can even be considered for a combatant 
command assignment. Maybe we do that for a majority of our 
three- and four-star assignments. That example, that message 
would go a long way and reverberate across the entire force, 
and it would change the culture all the way down to our ROTC 
[Reserve Officer Training Corps] programs, our junior ROTC 
programs, and in our service academies. It would take a 
generation, but I think we need to think like that.
    Number five, we need to significantly increase the tenure 
and stature of the Chairman of the Joint Chiefs of Staff and 
the Vice Chairman. Tenures with a minimum of 5 years--my 
recommendation--without reconfirmation. It does not mean that 
the President cannot lose confidence and you cannot get rid of 
that person if they are not doing their job, but I think a 
tenure with a minimum of 5 years should be considered. Why 5 
years? In order to last longer than the service chiefs and 
potentially serve or overlap two Presidents. This maintains the 
unbiased responsibility that the Chairman and the Vice with 
serving in that role as required has as the principal military 
advisor to the President.
    Number six, conduct a thorough and comprehensive overhaul 
of the defense acquisition system. Look at every single program 
of record. Every program not currently meeting its timelines or 
budgets should be immediately cut. Now, that is a big 
statement, but when you send a message that waste and 
substandard performance will no longer be tolerated, that would 
send shockwaves through the system and my belief is it would be 
nearly impossible to do. It would be the harder right thing to 
do. I do not believe necessarily that you could do it, but it 
would be interesting to see how many programs in an analysis of 
that that are actually up to standard. There are very few 
exceptions or very few in my experience and in my judgment 
today sitting here.
    Number seven, increase the investment in small businesses. 
Today I believe the Defense Department policy states a goal of 
25 percent investments in small businesses across the 
Department. Small businesses are the engine of change in our 
country right now, and with the rapid advancement in 
technologies across the board from health care to intelligence, 
we must seek new, innovative, and disruptive ways to force 
fundamental change. Most on this committee would be challenged 
to recognize the Fortune 100, never mind Fortune 500. They are 
all relatively new and many started as small businesses within 
the last decade. As stated, small businesses also innovate. 
They have to in order to survive. My strongest suggestion for 
consideration at this stage is to increase the small business 
investment goals of the Department to as high as 50 percent. I 
believe the Department and especially our warfighters would 
benefit most and many would benefit overnight. Lastly, small 
businesses are the best way to increase our Nation's economic 
strength, a drive change in this country. They would help us 
retool our Nation for the digital age.
    Number eight and the last recommendation is decide who and 
where decisions about acquisition reform can be made. The 
SecDef cannot make them all. But if a service chief comes in 
and says we need this program, cannot live without it, and a 
combatant commander comes in and says that program is not 
working, then do not let the system decide to keep it and only 
fix it on the margins. Get rid of it, or make the necessary 
decisions that actually make a difference. If they see 
something elsewhere and that is a capability they want, 
especially our warfighting commanders, and it can be produced 
in the requisite amounts within existing budgets, get it to 
them rapidly or allow them to acquire it without going through 
the whole morass of bureaucracy.
    In this context, the questions that this committee is 
considering are in my judgment the correct ones, namely, 
whether our Nation's institutions of national defense are 
organized, manned, equipped, and managed in ways that can deal 
with the security challenges of the 21st century and that 
efficiently and effectively spend our Nation's dollars.
    The Department is not meeting those challenges today, and 
we are not ready to deal with the challenges we, as the global 
leader with the premier military capability on the planet, 
should be capable of in the future.
    Without fundamental and massive reform, as well as some 
smart, numerous, and targeted reductions in areas that have 
grown bloated, irrelevant, and useless, we could find ourselves 
on the losing end of a major war, Chairman, one that sitting 
here today we are unable to predict.
    If our Nation is proud of being the world's leader, let us 
start acting like it and as our very first President, George 
Washington, stated, ``To be prepared for war is one of the most 
effective means of preserving peace.''
    Thank you for this opportunity. I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Flynn follows:]

        The prepared statement by LTG Michael T. Flynn (Retired)
    Chairman McCain, Senator Reed: Thank you for inviting me to 
participate alongside other great patriots of our country to offer some 
thoughts about defense reform and hope I offer thoughts consistent with 
many other themes you have heard from previous testimony as well as a 
few new ideas.
    In the times we face and will likely face in this very complex and 
unpredictable world, addressing defense reform is probably the single 
biggest strategic issue we must deal with (and deal with immediately).
    The days of large organizations moving at the speed of an elephant 
with bulky, expensive, overly bureaucratic acquisition programs, with 
little value to our warfighters and even less value to our national 
security are forever gone.
    Speed is the new big. Innovation is the norm, the pace of change is 
so stunningly fast, and the Defense Department (at least inside the 
Pentagon) is not capable of meeting the Demands of the future threats.
    Rearranging the deck chairs on the Titanic will only make the 
chairs slide in a different direction on the deck, but the ship will 
still sink.
    Former Secretary Robert Gates stated it best when he said that the 
Pentagon is good at planning for war, but on its best day cannot fight 
a war (that has been proven in spades over the past decade and a half 
(with few exceptions).
    And if the past fourteen years of conflict have proven anything, it 
has proven Secretary Gates to be spot on when it came to making that 
fateful statement.
    Neither our nation nor the citizens our defense system is designed 
to protect and defend can operate in the future the way we operate 
today.
    I would add that even though a nice glossy and well-meaning report 
will come out of this committee, there are people inside the Department 
that are looking at your efforts today as a joke and wondering, why do 
you bother . . . nothing will ever change.
    Please prove them wrong. We have forgotten how to win wars.
    Because we have lost sight of what winning looks like, instead we 
plod along, participating in conflict and allowing an overly bulky and 
bureaucratic Department of Defense and a completely broken interagency 
process, led by the White House (and rightly so) that has choked itself 
practically to death--it simply doesn't work in support of our 
warfighting needs today--the president, in his role as commander-in-
chief and the SecDef in his role as leader of our defense establishment 
are ill-served--there is no soft or kind way of saying that.
    And in a giant organization like the Department of Defense, change 
is not easy, reforms will take time, and I applaud your efforts to give 
it your best shot.
    At the end of the day, the budget process (and not the mission) is 
what truly changes anything in our government. We have to reverse that 
thinking.
    That is the sad truth.
    Where the money goes, things happen.
    And despite where that money goes, most times, has no bearing on 
our ability to win wars.
    If you don't get any money, you either change or you disappear. If 
you get money, you are able to survive another day.
    My experience comes from serving over thirty three years in 
uniform, twelve in joint assignments and nearly ten of those as a flag 
officer.
    I have also served many years in combat and have suffered from the 
lack of many capabilities we needed to fight our enemies and found 
myself fighting the Pentagon as much or more than our enemies. The 
bureaucracy of our lethargic system filled with people who depart for 
the day from their major headquarters or from the Pentagon and leave an 
inbox filled with actions to await tomorrow while I was sitting in a 
combat zone waiting for an answer . . . not a good way to fight a war.
    I have many personal examples and scars and have witnessed many 
examples of this in my days deployed to the wars in the Middle East and 
Central Asia.
    We must and can do better.
    Today, I will highlight a couple of points and provide some ideas--
hopefully, a few are new:
    First, we will never correctly predict the next war. We can warn 
about the many threats we face (and there are numerous and very 
dangerous threats--ISIS is the latest in a long line of threats to our 
nation that we must do more to contain, defeat and ultimately eliminate 
this radical Islamist ideology). And there are many more threats than 
this very dangerous enemy.
    And second, the connection between people, processes and systems is 
completely broken.
    Regarding people; we recruit using old outdated mechanisms and 
tools and then train people with equipment that is aging, not the most 
advanced, even though we (our country) have the most advanced 
technologies available to anyone in the world. Bottom line, our 
recruiting and training are being done with less than stellar rules, 
tools and advanced capabilities.
    We force our warriors to fight wars by forcing them to push joint 
urgent operational needs or emergency needs statements from the 
battlefield up the chain--that is no way to fight a war. It is reality 
because our people don't have, don't train, don't go to war with, the 
right tools. Essentially, they are not prepared to go to war with the 
equipment in our current inventories.
    We have to do better, and as the best military in the world, we 
can't afford to not look serious to the men and women we are supposed 
to serve and we don't look very professional in the eyes of our 
international partners (never mind our enemies).
    Lastly, we must consider retooling our high tech training. We must 
radically move from the information age to the digital age. China has 
an organization of 800k cyber warriors* associated with their 
Department 61398 and we are struggling to recruit 6k in the Department 
(*China has approximately 800k in their Honker Army/Honker Union--this 
is a group--some overt, some not, affiliated with the Chinese 
government--http:bbs.cnhonker.com/forum.php--take extreme precautions 
going to this website). Something is wrong with that picture.
    Any reform must consider retooling for future jobs and not hold 
desperately to 20th century tools and models.
    On processes; the processes we use are antiquated and usually one 
war behind. I went to war in Afghanistan the first time based on 
AirLand battle doctrine, a doctrine designed for the cold war. That 
doctrine was still being trained right up until 2006 (five years into 
the war) when Generals Petraeus and Mattis came out with the 
counterinsurgency doctrine. We can and must do better.
    Why did it take us nearly five years to change our doctrine when we 
were directly engaged in a counterinsurgency and counter terrorism 
campaign?
    Bureaucracy and service parochial infighting are two of the 
answers.
    Thank God our superb men and women, soldiers, sailors, airmen, 
marines and those civilians serving in combat innovate better than any 
other military in the world. When they realize that something is 
broken, they fix it on the battlefield instead of using the Pentagon's 
motto of, ``If it's broke let somebody else fix it--we still need the 
money.''
    And lastly, the systems we have and the acquisition system that 
drives much of how our services and combatant commanders operate may as 
well be in separate solar systems and none of these (with few 
exceptions) seem to be anywhere near the battlefields we operate on 
today.
    It is tempting to sit here and beat up those in the Pentagon and 
that would be unfair. But there are some in our system that see a jobs 
program, some who have never seen a program of record they didn't like, 
and some who abuse the system so badly, that it makes corrupt 
governments in Third World nations blush.
    Additionally, after nearly fourteen years of war, conflict, call it 
what you will, we are engaged with enemies of our country and they want 
to win. I am not certain we have demonstrated the resilience or 
fortitude to do the same (at least not yet).
    There are many in the defense system that have yet to experience 
that and do not understand the demands of combat and there are others 
who avoid it--wishing it will go away. It won't.
    We (you) have to fix a number of things, but one of the most 
important is the acquisition system.
    It must be joint and it must include the warfighter requirements 
and not simply serve the service chiefs and their constituent's needs.
    Secretary Gates found this and fixed it, but to do so, he had to 
become the best action officer in the Pentagon.
    That said, let me list a couple of ideas to consider as we go 
through the rest of this session and as you contemplate what steps to 
take to truly reform our system (all of which I will be ready to 
address in the Q&A).

    1.  Tooth-to-tail ratio must change (reverse it before we find 
ourselves not ready to fight never mind win)--we have way too much 
overhead and our staffs have become bloated beyond the nonsense stage.

    2.  Related to above, we have way too many four stars (commands and 
otherwise) around the world and too many four star headquarters in each 
of the services (11 ``warfighting'' commands alone). The service four 
and three star positions could easily be reduced a rank (or cut) and 
the staffs could subsequently be reduced.

    3.  Cut the civilian system in half or more. Turn those dollars 
into readiness and place more tooth into our warfighting forces. Be 
cautious about salami slicing, and help the SecDef and the senior 
civilian and military leaders make the best decisions based on a 
unified and strategic national security vision, approved by the 
president, instead of slicing to benefit some constituency--you must 
play a role but, very candidly, and over many years, congress created 
much of this mess and now you have an opportunity and a responsibility 
to correct it.

    4.  We need to seriously look at how we organize to fight and win 
in war. We man, train, and equip as services (i.e., Title 10), we go to 
war as a joint force (USAF carries the Army, Marines takes the Navy--in 
general), but we only win as a coalition--please name one time when we 
didn't fight as a coalition. We need to determine if we are creating a 
force that is not only technically qualified but also culturally and 
societally understanding and smart--language training for example is 
something that we need to place greater emphasis on for those officers 
serving in maneuver and operational assignments (foreign languages are 
not just for the Intelligence Community and attaches). For example, 
maybe we make it a prerequisite for combatant commanders to speak a 
foreign language before they can be even considered for a combatant 
command assignment. Maybe we do that for a majority of our three and 
four star assignments (that example would go a long way and reverberate 
across the entire force).

    5.  Significantly increase the tenure and the stature of the 
Chairman of the Joint Chiefs of Staff and the Vice Chairman. Tenures 
with a minimum of five years (without reconfirmation) should be 
considered. Why five years? In order to last longer than the service 
chiefs and potentially serve or overlap two presidents. This maintains 
the unbiased responsibility the CJCS (and the VCJCS when required) has 
as the principal military advisor to the POTUS.

    6.  Conduct a thorough and comprehensive overhaul of the defense 
acquisition system. Look at every single program of record. Every 
program not currently meeting its timelines or budgets should be 
immediately cut. No questions. Send a message that waste and 
substandard performance will no longer be tolerated--that would send 
shock waves through the system, would be nearly impossible to do--but 
it would be the harder right thing to do--I don't believe you could do 
it, but it would be interesting to see how many programs are actually 
up to standard--very few in my experience and my judgment.

    7.  Increase the investment in small businesses. Today, I believe 
the Defense Department policy states a goal of 25 percent investments 
in small businesses across the Department. Small businesses are the 
engine of change in our country and with the rapid advancements in 
technologies across the board (from healthcare to intelligence), we 
must seek new, innovative (and disruptive) ways to force fundamental 
change. Most on this committee would be challenged to recognize the 
Fortune 100 never mind Fortune 500. They are all relatively new and 
many started as small businesses in the last decade. As stated, small 
businesses also innovate. They have to, in order to survive. My 
strongest suggestion for consideration only at this stage is to 
increase the small business investment goals of the Department to fifty 
percent. I believe the Department and, especially our warfighters, 
would benefit most, and many would benefit overnight. Lastly, small 
businesses are the best way to increase our nation's economic strength. 
They will help us retool our nation for the digital age.

    8.  Decide who and where decisions about acquisition reform can be 
made. The SecDef cannot make them all. But if a service chief comes in 
and says we need this program (can't live without it) and a combatant 
commander comes in and says that program isn't working, then don't let 
the system decide to keep it and fix it on the margins or edges. Get 
rid of it. If they see something elsewhere and that is the capability 
they want (especially our warfighting commanders) and it can be 
procured in the requisite amounts within existing budgets get it to 
them rapidly or allow them to acquire it without going through the 
morass of bureaucracy. Secretary Gates experienced this first hand with 
ISR, medevac, and MRAPs to name a few. Again, he became the top action 
officer in the Pentagon because the people involved and the system 
itself were simply too slow, too bureaucratic and we were losing two 
wars. Amazing how, at that time, no one but the SecDef inside of the 
Pentagon, at senior leader levels, could see that--why?

    In this context, the questions this committee is considering are, 
in my judgment, the correct ones: namely, whether our nation's 
institutions of national defense are organized, manned, equipped, and 
managed in ways that can deal with the security challenges of the 21st 
century and that efficiently and effectively spend defense dollars.
    The Department is not meeting those challenges today. We are not 
ready to deal with the challenges we, as the global leader, with the 
premier military capability on the planet, should be capable of in the 
future.
    Without fundamental and massive reform as well as some smart, 
numerous, and targeted reductions in areas that have grown bloated, 
irrelevant and useless, we could find ourselves on the losing end of a 
major war--one that sitting here today we are unable to predict.
    If our nation is proud of being the world's leader, let's start 
acting like it, and as our very first president stated, ``To be 
prepared for war is one of the most effective means of preserving 
peace.''
    Thank you for this opportunity and I look forward to answering your 
questions.

    Chairman McCain. Thank you, General.
    General Jones?

  STATEMENT OF GENERAL JAMES L. JONES, USMC, RETIRED, FORMER 
   NATIONAL SECURITY ADVISOR TO THE PRESIDENT OF THE UNITED 
STATES; SUPREME ALLIED COMMANDER, EUROPE AND COMMANDER OF U.S. 
   EUROPEAN COMMAND; AND 32ND COMMANDANT OF THE MARINE CORPS

    Mr. Jones. Well, thank you, Mr. Chairman, Senator Reed, 
members of the committee. Thank you for inviting me to add to 
the expert testimony that you have already received from many 
other witnesses. I am honored to be here with my colleagues, 
General Flynn and Secretary Donley, to add my own views.
    But before I start, may I also thank the committee for 
section 1227 of the NDAA [The National Defense Authorization 
Act] that was recently passed, which pledges that the United 
States will do more to protect the residents of Camp Liberty 
who have since my last testimony been attacked and lost over 20 
lives and multiple injuries with very little global interest on 
their fate. There are 2,000 people sitting there, trapped, and 
we need to get them out of there. But I thank the committee 
very much for your support.
    Mr. Chairman, I too would like to commend the committee for 
its leadership in undertaking this Goldwater-Nichols analysis 
concerning what changes might be necessary in our security 
architecture based on today's new and swiftly evolving 
environment.
    I have a full statement, but I will summarize it as briefly 
as I can.
    At the outset, let me say that I wish to identify myself 
fully with the testimonies previously offered by Mr. Jim 
Locher, Major General Punaro, and Dr. John Hamre and likewise 
Secretary Donley here today and General Flynn. Most of the 
people I just mentioned were among those who throughout their 
distinguished careers contributed significantly to the passage 
and implementation of Goldwater-Nichols in 1986. So it is not 
my intent to repeat their testimonies phrased in different 
words, but rather I hope to be of service to the committee and 
its work by focusing on just a few points gathered from the 
experience of my serving in senior military positions and as 
National Security Advisor.
    Until this committee's current efforts, the most 
comprehensive review of Goldwater-Nichols and its so-called 
unintended consequences across the Department was commissioned 
in 1997 by then Secretary of Defense Bill Cohen when I served 
as his military assistant. While 18 years old now, in my view 
that study still stands in my opinion as the best effort to 
date in identifying necessary Goldwater-Nichols impacts and 
reforms, and I highly recommend that this committee revisit the 
task force's findings as you undertake the task of modernizing 
the Defense Department and our military forces to face 21st 
century challenges.
    In the course of the important work the committee is 
undertaking, we should remember distinctly that the Senate 
passed the original Goldwater-Nichols Act by a vote of 95 to 
nothing. This overwhelming consensus was achieved despite the 
strong objections from the Department of Defense civilian and 
military leadership of the time. This clearly suggests to me 
that any future revision of Goldwater-Nichols should again be 
undertaken objectively and externally to the Department of 
Defense for three reasons.
    One, the Department is consumed with everyday problems 
around the globe of increasing complexity.
    Two, moreover large bureaucracies have inherent difficulty 
in implementing change from within.
    Lastly, as we all know, reform challenges and entrenched 
interests will fiercely resist many of the recommendations 
proposed by our previous witnesses and perhaps my own included.
    So my full statement focuses on four areas that I believe 
should be part of any effort to produce a Goldwater-Nichols II 
to improve our national security.
    The first is fixing the overwhelming and unsustainable 
``all in'' personnel costs for the all-volunteer force in 
addressing the systemic imbalances that endanger the 
Department's capacities and capabilities.
    Second, to reform the appallingly wasteful and inefficient 
DOD business model for operations.
    Three, moving towards a new interagency balance centers 
around unified commands.
    Four, modernizing the roles, missions, and organizations of 
the National Security Council. That last point was not in the 
original Goldwater-Nichols, but in view of the importance of 
the National Security Council, I think that it should be part 
of any consideration of a Goldwater-Nichols II.
    So with regard to personnel costs, the past three 
Secretaries of Defense, Secretaries Gates, Panetta, and Hagel, 
have each publicly stated that the cost growth of personnel 
expenditures in general is unsustainable. The cost growth in 
military pay, quality of life, retired pay, and VA [Veterans 
Affairs] and DOD health care costs far exceed both the GDP 
[Gross Domestic Product] and the Employment Cost Index.
    Interim report of the Military Compensation and Retirement 
Modernization Commission stated that there was a $1 trillion 
unfunded liability over the next 10 years in military 
retirement that is not in any budget.
    The current Commandant, General Robert Neller, is 
challenged, for example, by the reality of having to spend 
approximately 68 percent of his budget on those same costs. By 
comparison, 12 years ago when I was in the similar job as 
Commandant of the Marine Corps in 2003, my expenditure for 
those same costs was approximately 49 percent. So you have a 
significant cost growth over 12 years, and left unchanged, 10 
years from now or 12 years from now, our budget will be 
increasingly consumed by personnel costs. This disturbing trend 
will accelerate and will weaken the armed forces' capabilities 
to fulfill their roles and missions.
    The remedy is to modernize the pay and benefits for the 
active duty, reserve, DOD civilian, and retired communities and 
reform a system built for a different force in a bygone era 
featuring numerous anachronisms, as noted in my full statement.
    In fairness for all who served on today's active or reserve 
duty, the terms under which they entered active duty service 
should be honored before making any reforms that would affect 
the total force. I think billions of dollars could be saved by 
keeping the faith with our service members and those who enter 
service the day after the legislation is passed.
    Resources once allocated to recruiting, training, and 
equipping front line forces are now being reallocated to 
support the increasingly top heavy headquarters components or, 
put another way, the tooth-to-tail ratio is spiraling out of 
control. The stifling bureaucracy yielded processes and 
procedures that are far too complex to perform once simple 
tasks. This dynamic has produced a paralyzing environment in 
which micro-management and endless consensus building impede 
initiative and impede action.
    $113 billion to support 240,000 members of OSD, Joint 
Staff, and DOD headquarters illustrates the point. In 1958, the 
Joint Staff was authorized 400 personnel. Today the Joint Staff 
directorates have 4,000. Medical treatment facilities that are 
now being used at a 50 percent utilization rate but have a 
division's worth of medical administrators are still allocated 
$41.7 billion.
    The enlarging tail is largely responsible for a broken 
acquisition system. Examples in each of the services. The Air 
Force's F-35 program, the Marine Corps' ill-fated AAAV 
[Advanced Amphibious Assault Vehicle] program, the Navy's Ford-
class carrier program, the Army's Future Combat System. May I 
thank the committee also for your support in putting service 
chiefs back in the acquisition process. I think this is 
something that was long overdue and something that was an 
incredible frustration during my time as service chief.
    Point number two was reforming wasteful, inefficient DOD 
business operations. DOD's agencies, once relevant and once 
perhaps a good idea--many have outlived their usefulness and 
they contribute little to our warfighting capabilities at huge, 
enormous expense, as General Flynn just referred to. They have 
avoided serious but needed reforms. The DOD agencies themselves 
consume 20 percent of the Defense Department's budgets.
    As General Punaro testified, DOD's top two clients are DLA 
[the Defense Logistics Agency], which consumes $44.1 billion, 
and the second is the defense health programs, $41.7 billion. 
Number three is Lockheed Martin Corporation, $13.5 billion 
behind the top two DOD agencies at $28.2 billion.
    I experienced significant frustration in dealing with 
agencies as a service chief back in 1999 to 2003, and listed in 
my detailed report is the story of how the Marine Corps changed 
its combat uniform and modernized it. Essentially I discovered 
in negotiating with DLA that my service would be assessed a 22 
percent carrying charge for the service of going out and buying 
the uniform, and I politely declined, formed a small group of 
marines. We went out and did it ourselves at a cost far 
cheaper, far quicker, and more efficiently than anything DLA 
could do.
    One question that I have frequently wondered is why are 
flag and general officers running businesses instead of 
commanding troops. Business-intensive defense agencies headed 
by active duty flag and general officers do not make a lot of 
sense to me. We need business experience to ensure fiscal 
solvency of agencies. We should staff these agencies with 
business executives and return military personnel to 
operational ranks to reduce the tooth-to-tail ratio that is 
spiraling out of control.
    The tenth largest client of the Department of Defense is 
the Defense Commissary Agency, which is subsidized to the tune 
of $1.4 billion annually. What is the remedy? Outsource it. 
Walmart and other agencies like it can compete for the same job 
that the Defense Commissary Agencies are doing on our base at 
reduced cost to the taxpayer, lower inventory, transportation 
costs, without any subsidies, and higher potential savings for 
military families. In 2001, I volunteered my service as an 
experiment to test this, and it was soundly rejected as a 
result of the entrenched bureaucracies and the fact that I ran 
out of time as service chief and could not get it done.
    Rebalancing the interagency and unified commands to meet 
21st century threats is my third point. AFRICOM [United States 
Africa Command] is a good example of what I am about to talk 
about.
    AFRICOM was created out of EUCOM. It was proposed by 
General Wald and myself, recognizing that Africa as a continent 
had arrived as a 21st century reality that needed to be 
recognized. Ironically, although most of Africa except for the 
Horn, was tasked to EUCOM, the word `Africa' does not appear in 
the EUCOM title. We proposed AFRICOM in order to change that 
span of control which was much too big for one commander of 
Europe and Africa totaling some 85 countries.
    But the value of unified commands fosters military 
interoperability, training, common military architectures, and 
requisite support to our friends and allies. They are extremely 
important. They are a gift of the 20th century. But they need 
to be changed to recognize the realities of the 21st century.
    In my view, ideally unified commands should be in the 
geographical areas they purport to affect and to work in. We 
have taken some steps back over the years, but if I could 
change any one thing, I would place CENTCOM [United States 
Central Command], the Central Command, in its AOR [area of 
responsibility] as opposed to just a forward command, and I 
would, as I proposed to Secretary Rumsfeld, place AFRICOM in 
Africa where it would do the most good.
    Absence of military unified commands in the regions creates 
vacuums. Vacuums are filled by people who do not have our 
interests, and routinely as I travel around the African 
continent, I am asked why is the U.S. not here. Why are we not 
more involved? Why are we not competing with China more 
successfully? We need America. We want America.
    The presence of U.S. companies, NGOs [non-governmental 
organizations], academic institutions, in a combined unified 
command headquarters would send powerful messages to that 
continent's 54 countries. The whole-of-government approach to 
21st century engagement would show the U.S. as an enduring 
partner for all African nations seeking freedom and prosperity.
    With your permission, Mr. Chairman, I would like to submit 
for the record a study called `All Elements of National Power: 
Moving Toward a New Agency Balance for the U.S. Global 
Engagement,' prepared under the auspices of the Brent Scowcroft 
Center at the Atlantic Council, which I was privileged to 
chair.
    Chairman McCain. Without objection.
    [The information follows:]

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
      

    Mr. Jones. Thank you, sir.
    The last point, the whole-of-government coordination. I 
believe that a look at the National Security Council and how it 
is resourced and what it does must be included in any 
Goldwater-Nichols review. New global challenges require 
interagency response not former stovepipe solutions. For 
example, early in 2009, we combined the Department of Homeland 
Security staff with the National Security staff in recognition 
of the fact that security threats are not contained by borders. 
But the new National Security staff was awarded an anemic 
budget of $4 million to perform the task at hand, which is was 
absolutely impossible. We were able to get a modest increase, 
but a detailed study in 2010 suggested that $23 million would 
be appropriate to create a small NSC [National Security 
Council] staff with agency-like functions and expertise to do 
the job.
    But the overwhelming difficulty with the NSC is one of 
management of personnel, not so much the size, although I 
recognize that it needs to be reformed. The detailees who are 
assigned to the NSC are there for very short periods of time, 
and in 2010, because of the lack of funding to pay salaries and 
compensation for the entire staff, most of the people at the 
NSC were detailees from other agencies and they were allowed to 
stay for about a year. So in 2010, 50 percent of the National 
Security Council rotated back to their parent agencies and was 
replaced. My view is that three-quarters of the people in the 
NSC ought to be permanent personnel, and one-fourth ought to be 
augmentees from the agencies. Today it is exactly the opposite.
    I believe that the National Security Council must be a 
policy communicating, disseminating organization, not one that 
micromanages implementation, and we should avoid that 
micromanagement. But it is a slippery slope that all NSCs 
eventually have to confront as they mature in any 
administration. It must serve as a coordinating agency to 
effectuate the national security policies that require 
presidential decisions.
    Secretary Gates in his testimony underscored the important 
role of the NSC and the National Security staff as a 
presidential instrument ensuring proper implementation by the 
interagency. Destructive consequences of DOD and national 
security interests pertaining to partisan gridlock, budget 
impasses, and the recurring threat of government shutdowns was 
also emphasized.
    Mr. Chairman, Senator Reed, thank you very much for 
inviting me to be here today. I firmly believe that your work 
is an important work. It will serve the country well for the 
next 30 years, and I would recommend use of the original 
Goldwater-Nichols architects in the Defense Reform Task Force 
to make a major contribution to a new Goldwater-Nichols, as all 
are still current on the issues and all are still very 
influential and providing wise advice to our government.
    Thank you.
    [The prepared statement of Mr. Jones follows:]

        Prepared Statement by General James L. Jones, USMC (RET)
    Chairman McCain, Senator Reed, Members of the Committee, thank you 
for inviting me to add to the expert testimony you have already 
received from the staff architects of one of the most significant 
pieces of legislation affecting America's Armed Forces and their 
civilian leadership: The Goldwater-Nichols Department of Defense 
Reorganization Act (GNA) of 1986.
    As you know, the GNA's purpose was to modernize the Department of 
Defense to fulfill its national security roles and missions in changing 
times. Modernization, of course, is an enduring obligation. It requires 
an iterative and ongoing process of examination--one that responds with 
agility to national experience and lessons learned, yielding reforms 
that meet the unique circumstances and requirements of our time.
    So, I commend the Committee for its leadership in undertaking this 
analysis of what changes are necessary based on today's new and swiftly 
evolving security needs. I hope that some observations from my 
experience in and out of uniform will be of service to you in this 
task.
    From 1979-1984, I was privileged to serve as the Marine Corps 
Senate Liaison Officer, under the leadership of then-Captain John 
McCain who directed the combined Navy-Marine Corps Liaison Office until 
he retired from active duty in 1980. In many ways, my time on Capitol 
Hill was among the most educational experiences of my 40-year active-
duty career that culminated in my serving as Commandant of the Marine 
Corps (Service Chief function), Commander of the U.S. European Command 
(Combatant Commander function), and in NATO as Supreme Allied 
Commander, Europe (Command of NATO's 26 nation, multinational force). 
After I retired from active duty in 2007, I served as Special Envoy for 
Middle East Regional Security until 2008. From 2009 -2010, I was 
privileged to serve as National Security Advisor.
    The first days of my Capitol Hill assignment coincided with the 
advent of GNA, the early days of the creation of the All-Volunteer 
Force (AVF), and the transition to joint force concepts. Over the next 
five years, I had the good fortune of working with and knowing many 
Members of Congress and their staff, as well as the principal 
architects of the GNA legislation, some of whom have already testified 
on the subject at hand. Many of these relationships blossomed into 
lifelong friendships that I continue to treasure to this day.
    With regard to my appearance before the committee today, I wish to 
identify myself with the testimony offered by Mr. James R Locher lll, 
Major General Arnold L Punaro USMCR (Ret), and Dr. John J Hamre. 
Likewise, Secretary Michael Donley, here today, was among those who, 
throughout his distinguished career, contributed significantly to the 
passage and implementation of Goldwater-Nichols. Though many Members 
and staff participated in the development of Goldwater-Nichols, the 
contribution and expertise of these former members of the SASC Staff to 
this legislation is beyond question. Each of them continues to offer 
wise counsel to current leadership of the Department of Defense today.
    I agree fully with the testimony of these experts. It is not my 
intent to repeat the content of their valuable contribution, phrased in 
different words. Rather, I would hope to be helpful to the Committee
    in making a few points gathered from the experience of serving in 
the senior military positions I previously mentioned.
                            time for reform
    The Goldwater-Nichols Act reformed a Department of Defense that 
operated for nearly 40 years under the mandate of the National Security 
Act of 1947. In the nearly 30 years that have elapsed since GNA's 
passage, America's Armed Forces have been asked to do much in a world 
that has changed significantly, and with it the national security 
threats we face and requirements to combat them.
    Until this Committee's current efforts, the most comprehensive 
review of GNA and its ``unintended consequences'' across the Department 
was commissioned in 1997 by then-Secretary of Defense William Cohen, 
when I served as his Senior Military Assistant.
    MajGen Punaro's testimony earlier this month recounts the team that 
was assembled--the Defense Reform Task Force--and its work at Secretary 
Cohen's behest. While 18 years old that study still stands, in my 
opinion, as the best effort to date in identifying Goldwater-Nichols 
impacts and reforms. I highly recommend that this Committee revisit the 
Task Force's findings as you undertake the task of modernizing the 
Department and our military forces to face 21st century challenges.
    In the course of this work we should remember very distinctly that 
the Senate passed the GNA by a vote of 95-0. This overwhelming 
consensus was achieved despite strong objections from Department of 
Defense civilian and military leadership of the time. This clearly 
suggests that any future revision of Goldwater-Nichols should again be 
undertaken objectively and externally to the Department of Defense for 
several reasons.
    First, the Department is consumed with everyday problems around the 
globe; they are mounting in complexity and frequency, suggesting that 
there isn't enough time for a study of this magnitude to be 
accomplished ``inside'' the Pentagon. However, the Pentagon should very 
much be invited to participate fully and in complete transparency in 
any notional ``Goldwater-Nichols ll'' effort. Second, large 
bureaucracies have inherent difficulty in implementing ``change'' from 
within. Our senior leaders rotate out of their positions frequently, 
leaving behind the entrenched middle-level management which, normally, 
will always attempt to hold the line against truly significant reform. 
Third, some of the necessary remaining reforms pertaining to the 
original legislation will challenge entrenched interests who will 
fiercely resist many of the recommendations proposed by previous 
witnesses, including my own.
         four critical focus areas in need of urgent examinaion
    In order to not duplicate the previous testimonies with which I 
largely agree, I would like to focus my input on four areas requiring 
urgent examination and consideration for reform in any effort to 
produce ``Goldwater-Nichols ll'' legislation aimed at improving the 
ability to provide for the nation's security.
    One, the overwhelming and unsustainable ``all in'' personnel costs 
associated with the All-Volunteer Force and the dangers that systemic 
imbalances pose to the Department's capacities and capabilities.
    Two, the wasteful and inefficient manner that the Department of 
Defense conducts its ``business,'' requiring that we reevaluate the 
utility of the Defense Department's own agencies as currently tasked 
and organized.
    Three, the compelling need to move toward a new interagency balance 
centered around reformed ``Unified Commands,'' now titled Combatant 
Commands.
    Four, the requirement to modernize the role, mission, and 
organization of the National Security Council (NSC). Though not 
specifically addressed in the Goldwater-Nichols Act of 1986, the 
critical role played by the NSC in the formulation of national security 
policy should be considered as a necessary part of any ``Goldwater-
Nichols ll'' effort.

    1)  Unsustainable ``All In'' Personnel Costs Threaten the Efficacy 
of the All-Volunteer Force

    The past three Secretaries of Defense (Gates, Panetta, and Hagel), 
have each publicly stated that the cost growth of personnel 
expenditures, in general, is unsustainable. As noted in MajGen Punaro's 
testimony, their conclusions are based on the ``comparison of the 1998 
to 2014 cost growth in military pay, quality of life, retired pay, and 
VA and DOD health care which far exceeded both the GDP and the 
Employment Cost Index.''
    The problem in my view is more serious than commonly recognized. I 
would submit that the results of the Military Compensation and 
Retirement Modernization Commission's Interim Report have been, in 
part, overlooked as it pertains to the actual cost of programs. These 
costs are reflected in a well-documented chart showing that ``the 
actual costs for pay, benefits, health care, and retirement, was over 
$400 billion a year, and that there is a $1 trillion unfunded liability 
over the next ten years in a military retirement fund that is not in 
any budget.'' Given the current fiscal strains in a time requiring 
greater national security resources, these are sobering facts.
    By way of example, when I served as Commandant of the Marine Corps 
from 1999-2003, I recall that almost 50 percent of the Marine Corps' 
annual budget was consumed by the aforementioned ``personnel costs.'' 
At the time I worried about the long-term trend of such costs as it was 
evident that they were destined to climb rapidly, most likely at the 
expense of the core competency of the Marine Corps' most urgent 
mission, that of producing an unrivaled fighting force to meet the 
future needs of the nation. Today, our current Commandant, General 
Robert B. Neller, is challenged by the reality of having to spend 68 
percent of his budget on those same costs. This means that in the 13 
years since I left that office ``all in'' personnel costs have 
increased by approximately 18 percent. It also means that Gen Neller 
has 18 percent less resources to spend on the requisite training and 
equipping of today's Marine Corps. If left unchecked, this disturbing 
trend will accelerate, weakening the Marine Corps' capabilities to 
fulfill its roles and missions.
    Dr. Hamre, MajGen Punaro, and Mr. Locher have provided accurate and 
valuable insights into the situation and the catastrophic consequences 
of failing to address the calamitous growth in personnel costs. 
Fortunately, there are several remedies which warrant serious 
examination. Among these are the need to modernize the pay and benefits 
for the active duty, reserve, DOD civilian, and retired communities. 
Serious work has already been done towards better understanding the 
urgency of the current situation.
    The body of evidence strongly points to the folly of superimposing 
the All-Volunteer Force on what was essentially a conscripted system. 
In retrospect this was probably short-sighted given that today we are 
harnessed with a raft of requirements developed for a different kind of 
force in a bygone era, including guaranteeing equal pay regardless of 
quality of work, a retirement system based only on 20 and 30 years of 
service, and a health care system that benefitted personnel serving on 
active duty, and those having achieved ``retired eligibility'' status. 
The eligibility qualifications in all three areas have been enhanced, 
but remain essentially unchanged despite the increase in the numbers of 
eligible recipients who are also living much longer than the GNA ever 
anticipated.
FUNDING DOD'S ``TAIL'' AT THE EXPENSE OF THE ``TOOTH''
    While I do not want to belabor points this committee has heard in 
previous testimony, the monumental impact of the Department's 
ballooning all-in costs of personnel can't be overstated. The problem 
stands as among the greatest threats to the Department's ability to 
maintain a balanced ``tooth-to-tail'' ratio between the war fighting 
forces and the support establishment. The status quo threatens the 
Department's ability to maintain U.S. national security and it demands 
urgent attention.
    The significant increase of the Department's headquarters' staff--
``the tail''--including civilians, military, and contractors has 
created a stifling bureaucracy, yielded processes and procedures that 
are far too complex to perform once simple tasks. The dynamic has 
produced a paralyzing environment in which micro-management and endless 
consensus building impede initiative and impede action. Moreover the 
``tail'' is soaking up resources needed by the ``teeth'' of our armed 
forces.
    Resources once allocated to recruiting, training, and equipping 
front line forces are now being reallocated to support the increasingly 
top-heavy headquarters' components. When considering total personnel in 
the support establishment associated with the Office of the Secretary 
of Defense, the Joint Staff, the Combatant Commands and the Defense 
Agencies, the Department of Defense spends $113 billion to support 
240,000 people. Referencing once again MajGen Punaro's previous 
testimony to further illustrate my point, in 1958, the size of the 
Joint Staff was authorized for and limited to 400 personnel. Today, we 
support upwards of 4,000 across the J-directorates. At the height of 
the military build-up under President Ronald Reagan, $600 billion was 
spent in support of 2.2 million active duty service members. Today, in 
constant dollars, $600 billion supports only 1.2 million troops.
    Funding the military health care system is one of the Department of 
Defense's largest annual expenditures. When we consider the fact that 
medical treatment facilities are operating only at 50 percent 
utilization rate, but have on staff a division's worth of medical 
administrators, one has to question the justification of more than 
$41.7 billion budget allocated each year to the Defense Health Program.
    Addressing the inequities in our military compensation and benefits 
system is now necessary and overdue, and I note that some much needed 
efforts are already underway to address this important issue. 
Consideration should be given to the relationship between active duty 
pay and entitlements and any earned retirement benefits that are 
representative of a more modern system.
    It is important to be very clear about one fact: I feel very 
strongly that, in fairness, all who serve today on active or reserve 
duty should remain eligible for retirement benefits under the terms 
currently in force. Studies have shown that even with this stipulation, 
billions of dollars could be saved by implementing a new program for 
all future service members who enter the Armed Services ``tomorrow.''
    Across the Department of Defense, we are spending far more 
resources on the ``tail'' and far too little on the ``tooth''. In any 
event, the spiraling ``ALL IN'' personnel costs need to be considered 
as a single entity, and not as unrelated stovepipes, which has been the 
tradition for the past several decades.
MANDATE ACQUISITION REFORM
    Acquisition reform is another area which is in need of urgent 
reform. While there are many ways to address this issue, starting with 
the costs and the length of time it takes to produce the next 
generation of ground, sea, and air weapons systems, culminating with 
the layered bureaucracy that manages the business end of procurement in 
the Pentagon, simple logic and observation suggests that our 
acquisition process as a whole is either dysfunctional, broken, or 
both. One need only to look at the Air Force F-35 program, the Marine 
Corps' ill-fated AAAV program, the Navy's Ford Class Carrier program, 
and the Army's Future Combat Systems program to recognize that there is 
unsustainable enormous waste and inefficiency in the costs and length 
of time it takes to travel the road from concept to operational 
delivery of many of our major programs. This process can and must be 
fixed.
    As a former service chief, I can tell the Committee first hand that 
my inability to influence the acquisition of major war-fighting end 
items was easily the most frustrating aspect of my tenure as 
Commandant. In fact, even though I was prohibited from any 
participation in the acquisition process by congressional fiat, I was 
nonetheless summoned on several occasions to testify about the costs, 
progress, and difficulties within our major programs, an acquisition 
responsibility I did not have at the time.
    This committee has already taken a necessary step forward in this 
year's National Defense Authorization Act by reinstating Service Chiefs 
into the acquisition process and by placing upon them the complete 
responsibility for their service programs. As Dr. Hamre highlighted in 
his testimony recently, ``DOD often courts trouble when there are 
confused or bifurcated responsibilities for functions and activities. 
It made no sense to have the Service Chiefs responsible for training, 
equipping and housing their respective forces, but not be accountable 
for acquisition.''

    2)  THE PENTAGON'S BUSINESS PRACTICES ARE ANTIQUATED

    Several of our Defense Support Agencies, perhaps created to satisfy 
relevant needs of the time, have outlived their usefulness. At almost 
every turn, we have avoided the serious reforms that are urgently 
needed and could, if enacted, produce huge savings. ``Today, DOD 
Agencies' expenditures are in excess of 20 percent of the entire 
defense budget'', according to MajGen Punaro's testimony, ``and have a 
cumulative headcount of over 400,000 active duty military, defense 
civilians, and contractors.''
    My most defining experience with such defense support agencies 
occurred in 2002, specifically with the Defense Logistics Agency (DLA), 
when the Marine Corps became the first service since the Vietnam War to 
modernize the field uniform, which had become too expensive to produce 
and maintain.
    After significant research, we found that new textile products 
would allow us to produce a new field uniform that was both cheaper for 
the Marine Corps and less costly for Marines to maintain. Initially, in 
accordance with the Department's standard operating procedure, I 
approached DLA for support. Upon asking DLA for a cost estimate for 
production of a new uniform, we discovered that DLA's ``carrying 
charge'' for this service would be 22%. This was the ``surcharge'' to 
each service for the ``privilege'' of doing our business for us. A 
simple check of ``industry wide standards'' for similar middle-man 
services revealed that the costs should have been approximately 6%. I 
made the decision to produce the new uniform within the Marine Corps 
itself, with a very small group of Marines, which we did, and at a 
significantly lower cost to the Service itself than the old uniform, 
and at a substantial savings in maintenance cost for all Marines.
    A second memorable experience from my time as Service Chief relates 
to the role and functions of the Department of Defense's own agencies, 
many of which have long since outlived their usefulness and currently 
contribute little to the war-fighting capabilities of our Armed Forces. 
Consider, as MajGen Punaro testified, that ``Defense Agencies are Big 
Business''. Five of the Department of Defense's top ten clients are its 
own agencies, and its top two clients are the DLA and the Defense 
Health Programs (DHP). Lockheed Martin Corporation occupies the third 
spot on DOD's top ten clients.
       
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    MajGen Punaro goes on to inform us that the ``DLA does over $44 
billion a year of business with DOD while Lockheed Martin is a distant 
third at $28 billion.''
    He further states that ``most of the Department's defense agencies 
would rate in the Fortune 250 and several are in the Fortune 50. They 
are not managed as businesses . . . even though one is, in fact, a 
grocery business. Another is a worldwide communications provider, and 
another on is the world's largest and most expensive health care system 
(DHP).''
FLAG AND GENERAL OFFICERS SHOULD COMMAND TROOPS, NOT RUN ``BUSINESSES''
    A question worth asking is this: Why is it that our largest and 
most business intensive defense agencies are headed by active duty flag 
and general officers? It would seem that leadership, direction, and 
fiscal solvency of such agencies would be greatly enhanced by having in 
the agencies' most senior positions leaders who actually have the 
experience of successfully managing large businesses. They would 
benefit significantly by the accountability and continuity of stable 
leadership than the current difficulties associated with transient 
military personnel who move in and out of such leadership assignments 
very rapidly. Excess military personnel derived from such reforms would 
be identified and returned to the operational ranks of their respective 
service, further enhancing the ``tooth-to-tail'' ratio.
    Overall, however, we should ask the hard questions as to why 
several agencies remain operational at all. For example, the 10th 
largest client of DOD, the Defense Commissary Agency (DCA) operates as 
a subsidized entity at a cost to the taxpayer of $1.4 billion, 
annually. Why would we not ``outsource'' our military on-base ``grocery 
stores'' to a major grocery chain that could run the operation without 
a subsidy, at reduced cost, and with more savings for military 
families. As Commandant of the Marine Corps, I volunteered my service 
to experiment with the concept of outsourcing our commissaries in 2001. 
However, the offer was not accepted, largely because of entrenched 
interests opposed to this idea, coupled with limited time I had 
remaining as a Service Chief in early 2003.
    How the Department of Defense does its business is very much worthy 
of review in any effort to construct a meaningful revision to GNA.

    3)  REBALANCING THE INTERAGENCY AND THE UNIFIED COMMANDS TO MEET 
21ST CENTURY THREATS

    Dr. Hamre's testimony identified some interesting ideas concerning 
the Combatant Commands and their evolution since GNA was adopted. I 
would like submit for consideration several suggestions on transforming 
our Unified Commands to better reflect the realities of their missions 
and the deployment of national assets to enhance the global engagement 
effectiveness of the United States in the 21st century.
    From 2003-2007, I was privileged to serve as NATO's Supreme Allied 
Commander (SACEUR) and as Commander United States European Command 
(EUCOM). All totaled, this responsibility included in excess of 80 
countries. What is not as well known is that this assignment also 
included the entire African continent, but excluded the countries 
comprising the Horn of Africa. Interestingly, at the time of my 
command, the word ``Africa'' did not appear in the title ``U.S. 
European Command''. The Deputy Commander of this command, for most of 
my tenure, was Gen. Charles Wald, USAF. His leadership and commitment 
to our entire geographical area of responsibility, including Africa, 
was critical to the transformation of the command in supporting the 
war-fighting efforts in Afghanistan and Iraq, as well as the eventual 
creation of the U.S. Africa Command (AFRICOM). Gen. Wald's insistence 
that the African continent's emergence on the world stage as an 
enormous reality that the United States could no longer ignore was the 
catalyst to an American awakening to this reality. Future 
administrations will have to recognize this as one of the most urgent 
geo-strategic imperatives of the future. Africa has ``arrived,'' and 
its potential is enormous; this should be good news for the United 
States, as well as an increasingly urgent challenge.
    The idea for AFRICOM, which was devised by EUCOM, was based on a 
simple premise. Gen Wald and I concluded that EUCOM's mission at the 
time was too vast, especially if we were to devote the required 
attention to the growing terrorist threats that were surfacing in 
different regions in Africa. We proposed to Secretary Donald Rumsfeld 
the idea for creating AFRICOM. Coupled with this idea was the 
recommendation that if created, AFRICOM should be located on the 
African continent. We also recommended that we should not call it a 
``Combatant Command,'' as this title alone would make it more difficult 
to find a ``home'' in Africa. We proposed referring to it by what I 
strongly feel is the correct title for all such geographical commands: 
a Unified Command. Today, AFRICOM has a home in Stuttgart, Germany 
alongside EUCOM. This is not ideal from a geographically strategic 
standpoint. All geographical commands are still referred to a 
``Combatant Commands,'' inaccurately in my view. With your permission I 
will hereinafter refer to such commands as ``Unified Commands.''
    The presence of our six geographical Unified Commands on several 
different continents is a gift of the 20th century, a privilege no 
other country in the world enjoys. The Unified Command structure 
emerged after the end of World War ll, when confidence in the United 
States as a country to be admired and associated with was at its 
zenith. For its values, its refusal to permanently occupy defeated 
adversaries, and democratic principles that celebrated the potential of 
each individual fortunate to be called ``American,'' America became the 
global model for the future.
    Today, our Unified Commands remain uniquely valuable assets that 
continue to foster military interoperability and training, common 
military architectures, and requisite support to our friends and 
allies. For these commands to be able to achieve their maximum 
potential effectiveness, I believe they should be geographically 
located in the regions they hope to affect.
    In the past years, we have witnessed the transition of the United 
States Southern Command (SOUTHCOM) from Panama to Florida, and the 
United States Central Command (CENTCOM) operating only a forward 
headquarters element in Qatar with the predominance of its forces 
operating in Tampa, Florida. Today, only USEUCOM (Stuttgart, Germany), 
and the United States Pacific Command (Hawaii) are the two unified 
commands that can claim to be located in the geographical regions of 
their responsibility. I recognize the inherent difficulty in reversing 
decisions already taken, but I would highly recommend that, if 
possible, CENTCOM and AFRICOM find homes in their respective regions of 
responsibility as a matter of urgency.
    In the Middle East, the influence and reputation of the United 
States has suffered in the eyes of our friends and allies in the 
region. Generally speaking, it is the widespread view that the Unites 
States has rebalanced its priorities to the Pacific at the expense of 
what many feel is the most dangerous region on Earth, the Middle East. 
It is true that the home of the United States Navy's Fifth Fleet is 
still Bahrain, and that CENTCOM still maintains a forward headquarters 
in Qatar. We have smaller task forces sprinkled in several countries in 
the region, but the absence of CENTCOM itself in the region has created 
a vacuum. This calls into question our national resolve to play a 
constructive role in a crisis-torn part of the world with enormous 
security challenges now and in the future.
    The regional decline in confidence in the United States has opened 
up the previously unthinkable possibility that our historical friends 
and allies are actually seeking assistance from, and closer relations 
with, Russia, China, and several European countries. In Africa, we 
surrendered in 1990 the top trading position we used to enjoy to China. 
Today, the oft-repeated refrain from many African leaders to their 
American counterparts is ``Where are you? Why aren't you in my country? 
We need America in Africa!''
    Much has been done in the preceding two administrations towards 
reversing this negative trend, but much more needs to be done. I am not 
just speaking about United States military presence or stepping up the 
activities of our foreign and civil services in Africa, but the 
presence of our companies, NGOs, and academic institutions. As part of 
this overall effort, successfully placing AFRICOM in Africa would send 
a very powerful message to the continent's 54 countries, that we are 
``present for duty'' as a whole-of-government; and that we intend to be 
an enduring partner for all African nations seeking freedom and 
prosperity--objectives which we know depend on the mutually reinforcing 
pillars of security, economic development, and good governance/rule of 
law. I would also like to submit for the record a paper I wrote for 
under the auspices of the Atlantic Council on the need to modernize 
U.S. global engagement based on these three pillars: security, whole -
of-government enterprise, and greater public-private sector 
cooperation.
    Moreover, in July 2014, I chaired as study conducted by the 
Atlantic Council's Brent Scowcroft Center on International Security 
entitled ``All Elements of National Power; Moving Toward a New 
Interagency Balance for U.S. Global Engagement.'' I commend it to this 
Committee's review. What follows is the executive summary of this 
study, which suggests that a transformation of our Unified Commands is 
worthy of consideration in any review of GNA. I request that the full 
report of the Atlantic Council's study be included as part of my 
testimony. Copies of the study have been made available to Members and 
staff of this Committee.
    [Questions for the record with answers supplied follow:]

        ``All Elements of Power; Moving Toward a New Interagency 
        Balance for U.S. Global Engagement'' Executive Summary 

        To deal effectively with long-range global trends and near term 
        securities challenges, the United States requires a broader 
        application of all elements of national power or risks 
        continued disjointed efforts in U.S. global engagement. A 
        transformed interagency balance is a hedge against uncertainty 
        in a dramatically changing world.
        As the U.S. National Intelligence Council suggested in its 
        landmark 2012 report, Global Trends 2030: Alternative Worlds, 
        tectonic shifts in several theaters will have significant 
        potential to cause global and regional insecurity in the coming 
        decades. American overseas presence in key regions is and will 
        remain integral to meeting the dynamic regional security 
        challenges and specific military threats. The United States 
        faces increased risks and missed opportunities to advance U.S. 
        interests, however, if it continues to focus on the military as 
        the primary government instrument working with allies and 
        partners on a regional scale. The U.S. government currently has 
        only one structure, the geographic combatant command, to 
        execute foreign and defense policy in key regions of the world. 
        At present, there is no mechanism in place to integrate 
        activities of all U.S. government departments and agencies in 
        key regions.

        As a result, U.S. gov't regional actions often are 
        uncoordinated and disconnected. To this end, recent geographic 
        combatant commanders have recognized the need for greater 
        interagency coordination and experimented with strengthening 
        the role and relevance of the interagency within their 
        commands. The intent of this report is to go further and make 
        interagency components the key integrator of elements of 
        national power to better manage foreign and defense policy 
        execution. This report discusses how the United States can 
        resource and restructure for a more balanced, forward-deployed 
        regional approach essential in improving the integration of 
        national Instruments of power--diplomatic, informational, 
        military, economic, and others--to advance U.S. interests at 
        the regional level. This task force initially focused solely on 
        restructuring the geographic combatant commands, but it quickly 
        became apparent that higher-priority, untapped points of 
        leverage existed that, if properly resourced, could greatly 
        strengthen U.S. efforts at the regional level. Although these 
        general recommendations are Department of Defense- and 
        Department of State-centric, we recognize the importance for 
        all of us government agencies and departments to play a role in 
        a true ``whole-of-government'' approach. Initial discussion 
        focuses primarily on security issues with the goal of bringing 
        in the full range of economic, political, and other issues and 
        agencies as changes progress. Many of the recommendations could 
        be implemented in the near- to mid-term under the current 
        structures of the Department of State and the Department of 
        Defense. The following general recommendations were developed 
        toward that end:
Interagency synchronization

    <bullet>  The United States should rebalance national Instruments 
of power by providing enhanced Department of State capacity in key 
regions. Unbalanced resourcing and manpower between the Department of 
Defense and the Department of State creates significant roadblocks to 
enhancing interagency presence in the region. A more balanced approach 
would strengthen U.S. engagement more broadly.

    <bullet>  Department of State regional assistant secretaries should 
be further empowered to set and coordinate foreign policy within the 
regions. Currently, assistant secretaries have an explicit requirement 
to be responsible, but they lack sufficient resources and authority to 
be effective. Regional assistant secretaries should have the authority 
to integrate the full range of foreign and security policy as well as 
diplomatic resources to execute foreign policy on a regional scale.

    <bullet>  There should be an ambassador-level civilian deputy in 
each geographic combatant command with deep regional experience and 
expertise. Absent crisis or war, the civilian deputy would, on behalf 
of the commander, oversee and integrate security cooperation efforts 
with allies and partners. The civilian deputy could also act as the 
senior political adviser (POLAD) who would have direct liaison with the 
Department of State regional assistant secretary. Likewise, the senior 
political-military advisers in the Department of State regional bureaus 
should have direct ``reach-forward'' access to applicable geographic 
combatant command leadership as well as a direct link to civilian 
deputies/senior POLADs in the geographic combatant commands. If the 
civilian deputy and senior POLAD are two different positions (depending 
on combatant command structure), then the civilian deputy would serve 
as the senior-most civilian representative within the combatant command 
and the primary link to the Department of State. The senior POLAD would 
act as the policy adviser to the combatant commander.

    <bullet>  To reach the fullest potential and ensure sustained, 
effective change, interagency legislation to support these changes 
would be essential, entailing provisions that would direct departments 
and agencies to adopt a whole-of-government approach. Legislation could 
use the Goldwater-Nichols Department of Defense Reorganization Act of 
1986 as a model.
Organizational transformation
    <bullet>  Geographic combatant commands should be renamed to 
signify the importance of a whole-of-government approach. A name change 
to ``unified regional commands'' would reinforce efforts to coordinate 
and integrate instruments of foreign and defense policy execution and 
would represent broader capabilities and engagement efforts than 
strictly a war-fighting approach.

    <bullet>  Allies and partners could play a more significant role in 
geographic combatant commands; international involvement could 
strengthen allied/partner nation support for U.S. policies and improve 
prepositioning and posture opportunities.

    <bullet>  Geographic combatant commanders should be assigned for 
sufficient time (at least three or four years versus two or three years 
at present) to gain a deeper understanding of the region and help 
fortify relations with regional counterparts.

    <bullet>  Divergence of regional boundaries among the Department of 
Defense, Department of State, and National Security Council causes 
friction and confusion; a common ``map'' would enhance a whole-of-
government approach.
Efficiencies
    <bullet>  Certain regional prepositioned supplies and equipment 
should be managed in a more coordinated manner by departments and 
agencies. Integrated prepositioning would save money and manpower, 
eliminate redundancies, and provide for a synchronized approach to 
crisis response resulting in quicker reaction times.

    <bullet>  Major efficiencies can be gained by returning ``back 
office'' functions from the geographic combatant commands and their 
service component commands to the Services and the Joint Staff, thereby 
streamlining geographic combatant command headquarters' staffs. The 
Secretary of Defense and Chairman of the Joint Chiefs of Staff should 
request a qualified outside group to assess details in report back in 
60 to 90 days.

    The task force also evaluated three specific restructuring options 
that would help move U.S. regional presence toward a more effective 
interagency balance. Although these restructuring options require 
legislative and organizational changes and a move away from long-
standing institutional norms, they are worthy of discussion and should 
be evaluated based on emerging 21st century strategic and fiscal 
realities. The following restructuring options should be explored:

    1.  An unconventional end-state would be the creation of an 
``Interagency Regional Center'' that would act as a regional 
interagency headquarters for foreign and defense policy. This new 
organization would result in the unification of the Department of 
Defense and the Department of State (as well as other agencies and 
departments) at the regional level. The Interagency Regional Center 
(IRC) would be led by an ``interagency regional director'' with 
regional experience and expertise who would report directly to the 
President or Vice President of the United States. The president 
develops the grand strategy and establishes national security strategy, 
while the regional directors would implement that strategy that the 
regional level. The regional directors would advise and participate in 
the National Security Council, as requested. Regional directors would 
also convene to discuss cross-regional issues and activities. The IRCs 
would ensure long-lasting integration of all instruments of national 
power.

       The interagency regional director would have a military and 
civilian deputy. The military deputy would focus on defense issues 
while the civilian deputy would focus on diplomacy, development, and 
other critical nonmilitary issues. The civilian deputy would also act 
as a regional ambassador-at-large who would have coordination authority 
for country ambassadors and other civilian-led organizations such as 
Treasury, Justice, and Commerce. Country ambassadors would still 
formally report directly to the Secretary of State through the IRC. The 
civilian deputy would be in charge of coordinating all nonmilitary 
agencies and organizations at the regional level. During wartime, the 
military commander will report directly to the President through the 
Secretary of Defense as in the current combatant command structure, 
while the director and civilian deputy would focus on nation-building 
and post-conflict operations. During peacetime, the military would 
report through the IRC for engagement. For this approach to be 
successful, peacetime and wartime responsibilities would need to be 
clearly delineated and understood.

    2.  An intermediate approach would collocate the Department of 
State regional bureaus with the geographic combatant commands. These 
locations would be ideal to strengthen the authority of regional 
bureaus and allow the bureaus to operate more nimbly. Colocation of the 
regional assistant secretary (or alternatively, a deputy assistant 
secretary) in his/her staff with the geographic combatant command would 
allow for regional-level integration with a more unified approach and 
presence. Colocation of other departments and agencies, such as Central 
Intelligence Agency (CIA) regional offices, should also be considered.

    3.  An alternative intermediate approach would be for the 
geographic combatant command civilian deputy to act also as a regional 
ambassador-at-large who would have coordination authority for country 
ambassadors and other civilian-led organizations in the region. His/her 
mission under this authority would be to coordinate U.S. actions, 
issues, and initiatives within the region and bordering regions. The 
civilian deputy would have the authority to require consultation 
between regional organizations, but would not have the authority to 
compel agreement. This coordination authority would be a consultation 
relationship, not an authority through which chain of command would be 
exercised. This approach works under the current structure, but adds 
integration by bringing together all agencies operating within the 
region to coordinate regional activities.

       It is critical that the United States think about how to adapt 
to emerging 21st century realities, both strategic and fiscal, 
particularly as the United State transitions from a decade of war. 
Long-range global trends and near-term security challenges demand a 
broader use of instruments of national power. The United States must 
take advantage of its strategic assets, and resource and restructure 
for a better balanced, forward-deployed approach. The Secretary of 
Defense, Chairman of the Joint Chiefs of Staff, the Secretary of State, 
and the National Security Advisor should commission a detailed follow-
on study to this report to further evaluate key insights and execution 
of suggested recommendations.
                    whole-of-government coordination
    The importance of the National Security Council (NSC) as an 
instrument of coordination in the foreign policy and national security 
direction of the Executive Branch belongs in any discussion pertaining 
to a possible ``Goldwater-Nichols Act ll.'' In an increasingly 
multipolar world, it is evident that a whole-of-government approach is 
needed to respond to an increasingly wider array of threats, as well as 
a dramatic increase in their sheer numbers. My experience in the NSC 
from 2009-2010 convinced me that strategic policy coordination by the 
NSC is its prime responsibility and is the best service it can provide 
the President. Gone are the days when a single department can be given 
the single responsibility to take on, by itself, any of the major 
challenges of our times. New challenges, such as cybersecurity, energy 
and climate security, economic security, and the rise of non-state 
actors indicate that the proper national interagency response spans 
across the traditional ``stove-piped'' menu to which we grew accustomed 
in the past century. Assuming that this is correct, it follows that 
there needs to be a ``coordinating agency'' tasked to effectuate the 
national security policies that require presidential decision making.
    I presume that today's NSC remains afflicted by the same 
organizational challenges that I faced in January 2009 when I first 
assumed the role as National Security Advisor. The main challenges 
facing the NSCs of this era are resources, manpower allocation, and 
increasing span of activity.
    One of the first decisions regarding the NSC in 2009 was to combine 
the NSC and Homeland Security staffs, a move that was widely applauded 
and which has proven itself to be extremely useful. Our security does 
not start or stop at our borders, and our efforts to respond to the 
multiple security challenges we face must be coordinated in a combined 
NSC staff. That task has largely been accomplished.
    In 2009, as I recall, the NSC operated on an ``anemic budget'' of 
$4 million. In combining the two staffs, as previously discussed, it 
became obvious that an increase in resources was necessary. After 
conducting a detailed study, it was determined that $23 million was 
necessary to conduct the NSC's important work, which also included the 
funding to hire the requisite expertise to appropriately staff the NSC. 
This request was rejected as being out-of-line in relation to the 
funding of other West Wing entities. As I recall, however, we did 
receive an increase of $8 million, adding to the $4 million previously 
allocated, for a total of annual budget of $12 million. Even 
considering that modest increase in funding allocation, I continue to 
feel that the NSC has been consistently underfunded for the tasks it is 
asked to perform and perhaps more importantly, those that it is 
expected to perform.
    The size of the NSC has come under criticism recently. Critics 
would do well to recall that in combining the Homeland Security Council 
(HSC) and the NSC in 2009, significant personnel efficiencies were 
achieved. Actually, the number of assigned personnel to the NSC is not 
the main problem; the main problem lies in how personnel are assigned 
to the NSC. The majority of personnel ``detailed'' to the NSC are ``on 
temporary loan'' from other government agencies. Parent agencies select 
the ``detailees,'' pay their salaries, and place strict controls on how 
long they can be ``away from home.'' This system causes significant 
personnel annual turnover rates within the NSC. As I recall, almost 
half of the NSC staff turned over in 2010, just one year after the 
administration took office. This situation exists for several reasons. 
One is that agencies themselves benefit from having more NSC-
experienced staff, not realizing that frequent rotations impact 
continuity of NSC efforts. Another is that the NSC itself is not 
resourced to pay the salaries of the amount of personnel needed to 
accomplish its mission. The result of frequent personnel turnover is a 
detrimental effect to the experience level, efficiency, and consistency 
needed in the NSC itself. My view of an adequate NSC staffing 
composition is 3/4 ``permanent personnel'' and 1/4 ``detailees.'' The 
length of service for ``detailees'' to the NSC can be easily determined 
by it and the respective agencies, and certainly the reforms I suggest 
could reduce the overall number of ``detailees,'' which would benefit 
the various agencies.
    My lasting conclusion with regard to the NSC's ``span of activity'' 
is that it should, first and foremost, be a very small ``agency-like'' 
organization with all the entitlements of larger agencies, such as 
funding for protocol, media, congressional relations, travel, etc. This 
is a simple resource allocation problem, but it has never been fixed. 
Second, the NSC should be a ``policy communicating/disseminating'' 
organization and needs to be the principal coordinating vortex for 
major national and international security issues. The number of Cabinet 
rank advisors who gather in the Situation Room to give advice to the 
President on the most important issues has increased significantly in 
the past few years. It is critical that the NSC staff be organized, 
resourced, and adequately staffed in order to do what is needed to 
coordinate interagency activities.
    Lastly, the NSC should not and cannot be a policy ``implementing'' 
organization. NSC's have had a historical tendency to travel down the 
``slippery slope'' of micromanagement as their tenure in an 
administration evolves. This is where the major criticism usually 
occurs; it is easy to lose the sense of balance between what is a 
primary function and what becomes an ``urge'' to manage the 
implementation of policy, something that vastly exceeds the mission of 
the NSC. It is, in my view, the responsibility of the National Security 
Advisor to create the environment that lends itself to partnerships and 
trust among Cabinet-rank officials who play an increasing role in the 
wider national security community.
    In his testimony before the Committee, former Secretary of Defense 
Bob Gates expressed doubt about the efficacy of an interagency 
Goldwater-Nichols. He makes valid points that must be considered 
carefully. I would submit that the practical difficulties he points out 
underscore the important role of the of the NSC and the NSS--as a 
presidential instrument--can and must play a role in ensuring that 
decisions taken by the President and his national security team are 
duly and properly implemented by the interagency. I believe that the 
NSC's ability to help perform this essential function would be greatly 
advanced by the personnel and structural reforms I proposed.
    Secretary Gates also testified about the Congress' vital role in 
setting the conditions for an efficiently run national security 
establishment. He noted the destructive consequences to the Department 
of Defense and our national security interests of perpetual partisan 
gridlock, budget impasses, and the recurring threat of government 
shutdowns. I would like to associate myself with his remarks on the 
need for Congress to be a part of national security reform, not only by 
how it funds and directs the DOD to operate, but how it conducts its 
legislative and oversight responsibilities.
                        concluding observations
    Mr. Chairman, Senator Reed, Members of the Committee, I thank you 
for allowing me to offer this testimony. I am of the opinion that the 
landmark legislation of Goldwater-Nichols Defense Reorganization Act of 
1986, which was informed, in part, by many of the findings included in 
the Packard Commission Report of 1986, provided the framework for the 
United States Armed Forces that our country enjoys and admires today, a 
force that is unequalled and unrivaled anywhere. It is now time to look 
to the future by modernizing those areas of the legislation that are in 
most need of reform. Previous witnesses have provided a long and wide 
ranging commentary on the need for a ``Goldwater-Nichols ll.''
    We are fortunate that many of the framers of the original 
legislation are still ``current'' on security issues, and are still 
providing advice to the leadership of our government and the Department 
of Defense. I recommend that additional use of this distinguished group 
be considered in any effort involving a proposed ``Goldwater-Nichols 
ll.'' They are truly national assets and collectively they represent 
decades of unparalleled experience. It could well be that the Committee 
might benefit from such a group to gather once again, as they did in 
1997, for the purpose of recommending the most important areas, on 
which there is universal agreement, for urgent reform. I hope my 
contribution has been useful and I look forward to helping you in any 
way possible in the important ongoing work of reform that serves the 
nation's interests.

    Chairman McCain. Thank you, and I thank the witnesses.
    I would just add it is my understanding, General, that 
under Henry Kissinger, the NSC staff was 50 people. I 
understand now it is 400. I might argue that in the days of 
Kissinger, we were more successful than we are today. It is not 
clear to me that increasing sizes of the staffs is necessarily 
the answer.
    I guess one of the fundamental questions I think that we 
are trying to confront here, that we have the COCOMs, but every 
time that there is a major contingency or emergency or some 
challenge, that we form up a joint task force, and they address 
it rather than the COCOMs themselves. In addition to that, 
obviously, we do not know the number of people on these staffs 
because we have never had a full accounting for not only the 
military personnel but the contract personnel and the civilian 
personnel that are all assigned to them as well. So some argue 
that the COCOMs should be reduced significantly in size and 
number because these standing task forces seem to be the 
vehicle for addressing the national emergencies.
    I guess we can begin with you, General Jones.
    Mr. Jones. Well, I think, first of all, the term `combatant 
command' is one that was coined during Secretary Rumsfeld's 
tenure. In my view the correct title for these commands is 
`unified command.' One of the reasons that AFRICOM wound up in 
Stuttgart, Germany was that we refused to change the title 
`combatant command,' and no African leader was going to welcome 
a combatant command of the United States in their country. So 
Germany has a long history with us. They understood what we 
were trying to do, and they extended the invitation to put it 
in Stuttgart, Germany.
    The overall functions of the 21st century unified command 
in my view are, number one, warfighting but also, number two, 
to by their presence, which is I think a gift of enormous value 
to the United States, be molded I think, as this report 
suggests, into a much more useful instrument of American 
engagement in foreign policy. I would advocate that there could 
be a structure where senior elements of the interagency could 
also be present. They would be working in the same time zone as 
their colleagues. It would bring a regional focus to our 
strategic thinking that would be extremely important. Right now 
in the State Department, the strategic and the operational 
level of involvement is located here in Washington, and as a 
result, we have a soda straw mentality approaching each country 
country by country when the world is much easier to understand 
if you did it by regions.
    So modernizing and transforming these unified commands into 
a more cogent expression of our national capabilities I think 
makes a lot of sense and should be seriously considered for the 
future.
    Chairman McCain. General Flynn?
    Mr. Flynn. Thanks, Chairman.
    So I am going to be a little bit hypothetical here. You 
asked about sort of re-imagining. You used the word `re-
imagining.' To specifically answer your question, the fighting 
forces inside of our combatant commands are not resourced the 
way you believe they are. So Army components, Marine 
components, naval components within a combatant command in some 
cases AFRICOM, parts of EUCOM--they do not exist or they do not 
exist in the capacity and capability to be able to actually 
combine themselves together with joint forces or coalition 
forces to do the job.
    So that said, imagine only two geographic combatant 
commands--only two--an east and a west. You would have to have 
specific other commands like STRATCOM, which I believe is 
necessary because we do have a nuclear responsibility for this 
Nation for this century; Cyber Command because this is 
definitely a new world as I highlighted in some of the things I 
said. So if that is all you had, you just had an east and a 
west four-star that did a lot of things--they would take on a 
lot of things. What we have to figure out is how do we flesh 
out the resources, the warfighting resources, the ready 
capabilities that we need from all these other places that have 
been highlighted by the testimony that you have heard today and 
others and get that stuff out of the tail of the Department of 
Defense and get it down into the warfighting forces that we 
need because otherwise we are going to--you know, we have 
Ebola, we have some problem somewhere around the world. It is 
like, okay, give me some bits and pieces and we throw it 
together. It really has nothing to do with coming out of that 
combatant command.
    So could you get to that? Could you get to an east and a 
west geographic combatant command? You know, they do not need 
to be services. They are headquarters. Would they be relatively 
large? I am not so sure if they need to be much larger than 
what they are doing. If you look at like a PACOM, you look at--
I mean, when we talk about EUCOM, AFRICOM, CENTCOM, I mean 
those are interesting. Could you bring something together that 
commanded all those? Then what you do is you drive down the 
size of these headquarters, starting with the building across 
the river here, and the resources that they need, as well as 
the agencies and activities of the Department of Defense. I 
tell you the one that I led is way over. It is overpriced and 
there are too many people in it. When you look at 9/11 to the 
size of it today, just in that example--and I think General 
Jones--he nailed it when we talk about some of what these 
agencies and activities are doing and how bloated they are.
    So could we get to that? Could we get to an east and a 
west? Could we drive down the number of four-stars and three-
stars that we have? I mean, when I look around the world, there 
are not a lot of four-stars out there. There is a few when we 
are talking about colleagues and we talk about what exists out 
there. It does not mean that we get rid of every one of them, 
but it means that we really take a hard look and do sort of a 
red team analysis of what it is that I am imagining here in 
this hypothetical, which I actually think that it is practical. 
Now, could it be achieved in 4 years? It would take some time 
and it would certainly take a lot of effort.
    Is it possible? It is possible. Can you imagine it? I can 
imagine it because when I look at how we fight today and how we 
have been fighting and how I think we will fight for at least 
the next 10 years, we are going to continue down this road that 
you have already recognized. We are stealing--so CENTCOM--I am 
pulling people on the battlefield. I am pulling people from 
PACOM, USFK, EUCOM, AFRICOM to fight a war in Iraq. From the 
intelligence perspective, we are pulling people from all over 
the place. They had no rhyme or reason to any kind of 
structured system that we had in place. So all those combatant 
commands had to pile on. It just made no sense.
    It is almost like take the whiteboard, wipe it clean, and 
then have some effort, some analytical effort, that takes a 
really hard look at sort of what I would just call a team B 
approach to what I am addressing.
    Chairman McCain. Senator Reed?
    Senator Reed. Well, let me start with Secretary Donley. If 
you want to make a comment, that would be appropriate, 
Secretary. But there is one point in your testimony that I 
thought was interesting because we are going to have a huge 
process here of reform, and you have to start off with some 
tangible first steps. One step you suggested was integrating 
the staffs of the services. Currently the uniformed staff is 
there and then the civilian sector staff is here.
    Can you just for a moment sort of comment on that proposal? 
Then I will ask General Flynn and General Jones for their 
perspective since they have served in different areas. Mr. 
Secretary, please.
    Mr. Donley. Sir, I will turn to that just quickly in answer 
to Senator McCain's question about COCOMs, a couple of points 
real quick.
    The committee's effort to redefine management headquarters 
and to get the Department to rebaseline all that work will be 
very important I think in getting a new updated baseline of the 
COCOM headquarters, the service component headquarters, et 
cetera. That is very important as you consider the way forward. 
That is why I focused on that area.
    Second, I do think having global coverage is important 
across the regional combatant commands. We actually did not 
have global coverage until the early 2000s. We had several 
countries that were, quote/unquote, unassigned. So it has taken 
us a long time to get to the global configuration we have. You 
can expect changes at the margins as commanders talk about the 
seams and they get adjusted. But I think trying to collapse the 
regional structure at this point would be a step backwards.
    Third point quickly on how COCOMs task organize. It makes a 
lot of sense to assign regional responsibilities to subunified 
commands or to component commanders. COCOM headquarters are not 
capable of doing everything themselves on their headquarters 
staff. One prominent example that is out there right now is the 
need to develop missile defense architectures. We are doing 
that in at least three places that I am aware of. We are doing 
that in the Gulf. We are doing that in Europe, including the 
eastern Med, and we are doing that in Asia. We need the 
technical expertise of the service components, air and land, to 
work that together, and they are doing it with allies at the 
operational level. So these are things that COCOM headquarters 
cannot do by themselves. It makes a lot of sense to task those.
    On the military department headquarters, so this has a very 
long history. As provided for in Title 10 coming out of 
Goldwater-Nichols, it sort of cements these two staffs in the 
same headquarters. But there are functions on both sides that 
in some cases are almost the same function. The assistant 
secretaries and the services, for example, for manpower and 
reserve affairs, have functional responsibilities for policy 
and oversight that look a lot like the deputy chiefs of staff 
for personnel on the military side. So they are compelled to 
work together, but they are organizationally separated. 
Depending on who is assigned there, the personalities and the 
guidance they get from their chief or their secretary, 
sometimes offices such as these and these two staff do not 
always work well together. If you are in the field, sometimes 
there is confusion about where you go in the headquarters. Do 
you go to the secretariat for this or do you go to the deputy 
chief of staff for this?
    Other parts of the staff that are separated actually ought 
to come together. Acquisition and logistics is one of those. As 
the committee knows, there is a long history of trying to work 
lifecycle management and put acquisition and logistics 
functions together. AT&L [the Office of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics] does that 
at the OSD level, but in the services those are still 
separated.
    So there is a lot of potential here to get to a single 
staff. It will be hard work, but it is I think worth doing.
    Senator Reed. Very quickly because my time is expiring. 
General Flynn, any comments? General Jones, any comments?
    Mr. Jones. I do. I am sorry, Mike. Go ahead.
    Mr. Flynn. I would just say briefly having witnessed this 
integration between services and the department level, I think 
that is the right approach. I do think that there has to be 
more--you know, the recognition of our civilian leadership has 
got to be very clear. But military officers to be able to work 
in there because it gets into what General Jones talked about 
is the interagency roles. You do not have to duplicate staff. 
So I think that that is a good idea.
    Senator Reed. Thank you.
    General Jones, please.
    Mr. Jones. Senator, I believe that we should consider all 
kinds of ideas, and I think we should not probably pick any one 
as being the best way to do it. I think that is the value of 
studying things.
    But just for information, the civilian-to-active duty 
ratios of the Department right now, with the Air Force is 1 to 
1.7, civilian to military. In the Navy, it is 1 to 1.8. In the 
Army, it is 1 to 2.3, and in the Marine Corps, it is 1 to 8.3. 
So we clearly have inflated numbers in our bureaucracy both 
military and civilian. We need to become more efficient. We 
need to do things quicker. We cannot continue to take 15 years 
to produce a major end item, important system for the 
warfighter. We just have to be leaner and really reduce the 
size of military staffs in headquarters just across the board.
    How you do the civilian secretariats and the military staff 
I think is something worthy of study. I do not have a clear 
view on how that would work. But it is certainly something we 
should consider.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, gentlemen, for joining us today, 
and thank you, Mr. Chair, for your very kind words on the floor 
yesterday. I certainly appreciated that.
    General Flynn, I am very concerned about the military 
intelligence force structure and the support actually going out 
to the warfighter. For example, AFRICOM. Despite ISIS surging 
in Libya and many of the other threats on the continent, the 
Army has stated there is likely going to be about a 2-year 
delay in getting an Army theater intelligence brigade 
established for support in that area.
    General Breedlove has also stated that in Europe the 
current levels of MI [military intelligence] support are very 
inadequate. They are lacking considering the threat that we 
have coming from Russia and other transnational threats and 
terrorism. Not much is being done to provide EUCOM with MI 
support.
    So we have INSCOM [United States Army Intelligence and 
Security Command] at Fort Belvoir, Virginia, and it is this 
Army senior intelligence integrator. It equips, trains, and 
mans the Army intelligence units all around the globe. You have 
spent 30 years in MI. If you could please tell us in your 
experience if INSCOM could be better reformed to support the 
warfighter and how we can achieve that.
    Mr. Flynn. Okay, and this really gets to the chairman's 
question about what we have been talking about with combatant 
commands' ability to organize, to fight.
    So INSCOM was a creation of the Soviet Union Cold War 
system that we fought at least 25 years ago now. So it is a--I 
am going to be very candid here. It is a bloated, almost 
irrelevant headquarters. We have Army component commanders 
underneath every geographic combatant command, actually 
underneath all of them. So we have an Army service component 
underneath EUCOM. You have one underneath CENTCOM. They are 
three-stars. I think in Europe it is still a four-star. But 
those are senior officers. The Army intelligence forces are 
aligned back to INSCOM. It just does not make any sense. Talk 
about more headquarters that you do not need.
    So I think that there is a fundamental need to take a real 
laser focus at what you are addressing and decide whether or 
not INSCOM can be dissolved. You take resources and you push 
them out to those theater intelligence brigades which are 
necessary, and they function very well and they do actually 
work for those commanders. But the way that we have them 
aligned--I know the size of INSCOM's headquarters, and I 
honestly do not know--I cannot sit here today and tell you that 
I have served 5 years in combat in the last decade, and I am 
not sure what that particular headquarters did for me. I know 
what the intelligence brigades did, and I would work it through 
the warfighting command system.
    So I think part of this reform--it is like agencies and 
activities and some of these other headquarters that have 
grown. This is one that goes back to the Cold War, and it is 
time to take another look at whether or not that is necessary.
    Senator Ernst. That is great. Thank you for the input, 
General Flynn.
    General Jones, in January of 2013, former Secretary of 
Defense Leon Panetta signed a memorandum eliminating the direct 
ground combat definition and assignment rule which directed the 
services to open the direct ground combat specialties 
previously closed to women by the first of January 2016 or to 
request an exception to policy for any direct ground combat 
specialties they determined should remain closed.
    In your experience as the former Commandant of the Marine 
Corps, what would your best military advice or recommendation 
for the Marine Corps have been to the Secretary of Defense for 
1 January? If you could expound on that please.
    Mr. Jones. Well, thank you, Senator. I would like to think 
that my time as Commandant was one that advocated for more 
billets being opened for women and broader integration. I was 
in the Marine Corps long enough to see the separateness become 
one Marine Corps where we had two separate organizations for a 
long time and they were brought together in the 1970s I think. 
So I have been a staunch advocate for making as many billets as 
possible available to women.
    The one exception that I feel strongly about is combining 
genders at the rifle squad, platoon, and company level simply 
because of the physiological differences between men and women. 
Overwhelmingly, that is my objection. I have served in combat 
as a platoon commander and a company commander in Vietnam. I 
have been a battalion commander. I do not see that as something 
that would enhance the combat warfighting capability of our 
units. When you look at professional sports and the National 
Football League, the National Hockey League, the National 
Basketball Association, professional tennis, professional golf, 
they make a distinction between men and women in terms of 
putting them on the same teams at the same time. I think that 
that analogy applies to women serving in line outfits at the 
very, very--at the warfighting level, as I said, at the rifle 
squad, platoon, and company level where I would be very careful 
about mandating 100 percent inclusion because I actually think 
that would decrease our combat capability.
    Senator Ernst. Thank you. I respect your opinion very much.
    Mr. Jones. Thank you.
    Senator Ernst. Thank you, gentlemen.
    Thank you, Mr. Chair.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    Thank you all for your service to our country and thank you 
for being here today.
    I am going to start with you, Secretary Donley. I am aware 
of the pressures that have been put on the Air Force as it 
relates to drone operators because of the incredibly capable 
unit that we have in Missouri at Whiteman. I know that the Air 
Force is working on this problem.
    But it seems to me that this is something that we did not 
see coming because now I have learned that the Air Force is 
actually considering using contractors in order to ease the 
burden on these drone operators.
    At large, I think the issue of contractors versus active 
military is something that we are struggling with in our 
military. Certainly there is a role for contractors. Certainly 
we all acknowledge there is a role for contractors. Hopefully 
contracts that have been well scoped and competed and that are 
not cost-plus and that are overseen with capability and 
confidence as opposed to what we saw with CORS [Contracting 
Officer's Representatives] when I first arrived in Washington 
in connection with what we were spending in Iraq on 
particularly logistic support, LOGCAP [the Logistics Civil 
Augmentation Program].
    So I guess my question for you, Secretary Donley, is are 
you comfortable that we are at a position that we are hiring 
contractors to do the drone work, which in fact our 
warfighters--the reason they are under such stress right now is 
because they are being asked to target and kill the enemy 
during the day and going home to dinner with their families. It 
is a new kind of warfighting. It just appears that we were not 
really ready to support these warfighters. I am uncomfortable 
that the answer is to hire civilians.
    Mr. Donley. Senator, I cannot speak to the current state of 
readiness or personnel pressures on the RPA [remotely piloted 
aircraft] operator force, but it certainly was significant and 
has been for quite some time.
    The demand for this capability has been off the charts, and 
the Air Force had discussions with Secretary Gates and his 
staff about what the upper limit would be. We always had 
difficulty. Working with my colleague, General Flynn, I 
remember when he was in Afghanistan. We were working these 
issues. The Department set targets for the Air Force to grow 
the number of orbits. Each time the Air Force met that goal, 
the goalposts were moved.
    Senator McCaskill. Right.
    Mr. Donley. This happened two or three times in a 2- or 3-
year period. So the Air Force was playing catch-up.
    These aircraft take a special training, obviously, and the 
mission integrating these aircraft with the intelligence system 
and providing that instantaneous sort of sensor-to- shooter 
capability netted into the entire intelligence network through 
the DCGS [Distributed Common Ground System] has been a 
tremendous capability for our country. But it has also been 
manpower intensive, and the Air Force has been behind the power 
curve in doing this.
    It seemed much easier and frankly the focus had been in the 
Congress and in the Department to just continue to buy more 
aircraft, which made sense. But what the Air Force was doing 
behind the scenes, at a time when the Air Force budget was 
stagnant and the Air Force was actually decreasing in size, is 
we had to man this force. We had to create a new job series and 
invent the career force for RPA operators, and we had to set up 
the schoolhouses. There was so much pressure on operations that 
it was difficult to keep up because they were also robbing from 
the schoolhouses.
    So your point is well taken. The force has been 
tremendously stressed.
    I am uncomfortable with having civilian contractors 
performing military missions. That does not sound right to me, 
and we need to take a close look at that interface between what 
is an appropriate civilian activity and what is an appropriate 
military activity in the sensor-to-shooter kill chain.
    Senator McCaskill. Correct.
    I am almost out of time, but I wanted to briefly, General 
Jones--any of you. If you want to respond to this on the 
record. But I am still looking for some kind of data that would 
support the morphing that occurred during Iraq and Afghanistan 
from the military with CERP [Commander's Emergency Response 
Program] to building highways and how we got to the point that 
there was a lack of accountability because it was never clear 
whether AID [United States Agency for International 
Development] was doing infrastructure and development or 
whether it was the active military. Obviously, there were 
security concerns. We had highways that probably should not 
ever have been built and were built under the aegis of this is 
fighting counterinsurgency by winning the hearts and minds, but 
in reality, it was probably more about our supply chain and 
reliability of our supply chain. This all got very murky. I 
have yet to see data that shows a direct relationship between 
the money we spent, which began with fixing the storefront 
broken window to the billions that were spent on vacant health 
centers, power plants that do not work. I could sit here and 
list dozens and dozens of projects.
    We have got to figure this out because just because we 
decided using this money in fighting counterinsurgency was a 
good idea does not mean it necessarily was. Somebody has got to 
show me that it worked. I do not think anybody has been able to 
show that yet, and I do not want us to go down that road again 
until somebody produces the data that showed it had an impact.
    Mr. Jones. Senator, I think that is a great question. My 
recollection of those days leading up to the invasion of Iraq 
was that the Defense Department was specifically informed that 
we would not do nation building. Therefore, there was no nation 
building plan. My recollection of the plan basically saw a 
military force go to Baghdad, pull down Saddam Hussein's 
statue, and they said, okay, we are going home. That was not 
the case. Everything that happened after that was very, very ad 
hoc and not well done. The lessons I think of that mission I 
think should stay with us for quite a while because I think 
engagement--if you are going to engage at that level in this 
21st century, you need to have the operational plan to bring 
about the security that you need, but you also need an economic 
plan and you also need--if you are going to change the 
government, you need to make sure you have governance and rule 
of law in what is going to happen afterwards. The Central 
Command of that time did not have that plan.
    Senator McCaskill. I want to make sure those lessons get to 
Leavenworth.
    Mr. Jones. Exactly.
    Senator McCaskill. Thank you.
    Chairman McCain. I might point out that the latest example 
of that is Libya, completely walking away, and many of us 
warned that the outcome now seems to be a new base for Al 
Qaeda.
    Senator Ayotte, the Democrats have a gathering and if it is 
okay with you, I would like to recognize Senator King to go, if 
you do not mind. I know you do not mind.
    Senator Ayotte. Of course, absolutely.
    Chairman McCain. Thank you.
    Senator King. Thank you, Senator.
    We are talking about supporting the warfighter. I think one 
of the most dramatic examples of the failure to do so and then 
eventually turning it around and doing so was the MRAP program.
    General Jones, what have we learned from that and the fact 
that Secretary Gates had to move heaven and earth to make that 
happen? What have we learned from that experience in order to 
be more nimble in terms of dealing with threats on the 
battlefield?
    Mr. Jones. Senator, this is one of the largest problems 
that we have in the current construct of the Defense 
Department. I might even say that even presidential directives 
are ignored. I will give you an example of a meeting between 
the President of Algeria, President Bouteflika, and President 
Bush in which the President of Algeria asked the American 
President for night vision goggles for his air force, pretty 
standard stuff. The President said let us do that, and he said 
we will do that. To this day, the Algerian air force have never 
received them. It is simply because in the bureaucracy that we 
built, there are too many people that can say no and too many 
areas in which it can be blocked. I can give you chapter and 
verse of other examples in dealing with foreign countries who 
really want to have a relationship with the United States and 
really want to buy United States products and eventually just 
throw up their hands and go buy French or Israeli or another 
country simply because it is just too hard and too slow. As I 
said, there are examples of presidential directives being 
consumed by the bureaucracy and its inertia.
    Senator King. But we have got to try to figure this out 
because lives are at stake. American lives are at stake if we 
cannot do an MRAP, if takes 2 years instead of 2 months, and 
there was a clear need. Not necessarily in this setting but 
perhaps following up in writing, you could give us some 
suggestions about how to deal with this bureaucratic issue. 
There has got to be some kind of expedited path. Are lives at 
stake? Yes. Then it goes in a different direction.
    Mr. Jones. Absolutely. But my opinion is you have got to 
reduce the bureaucracy. There are simply too many people that 
can say no and too many people that can block it. If we cannot 
do it for our own troops, let alone the troops of our allies 
and our friends, we are at risk I think in terms of, as you 
said, Senator, costing more lives because of our inefficiency. 
That is something that I think Goldwater-Nichols II could 
really take a look at and trim the bureaucracy so that there 
are fewer people who can say no.
    Senator King. It seems to me we have parallel bureaucracies 
now. We have the Secretary of Defense with all that that 
entails, and then we have the Joint Staff. We have got sort of 
two very large entities. Would that be where you would start?
    Mr. Jones. I think those are two very large bureaucracies. 
I noticed on the Secretary of Defense's staff, we have 70 flag 
and general officers. On the Secretary of Defense staff, 70 
flag and general officers working today. So this is enormous 
and contributes to the inversion that we have created with huge 
headquarters and their survival, and the amount of resource 
they consumes comes at the direct expense of the fighting 
forces, our fighting capabilities.
    Mr. Flynn. If I can just make one quick comment.
    Senator King. Yes, Secretary Donley, please.
    Mr. Flynn. In my last deployment, I spent almost 18 months 
in Afghanistan. The first office that I went back to the 
Pentagon and thanked--I purposely did this--was the Rapid 
Fielding Office, which was a creation of the inertia that was 
required on the battlefield because just literally the dozens 
of urgent need statements that were coming from the 
battlefield. So this rapid needs office was stood up, a bunch 
of really great Americans, and they were rapidly turning as 
fast as they could those kinds of things. The Secretary, both 
Rumsfeld and Gates, really turned it on. They were able to move 
things faster. But even then, they had to work around all this 
mess that we have all highlighted here. I just think that we 
have got to figure out how we can speed up the process when we 
go to war. We have to.
    I will leave one other comment. Secretary Rumsfeld came out 
to visit us in Balad, Iraq early as in the 2004 time frame. I 
will never forget the conversation. A small group. We told him. 
We told him if you told us that we were going to go to war and 
we were not going to come home until we won, we would fight 
this war differently. But when you tell me that I am on a 9-
month deployment, I am on a 6-month deployment, I am on a year 
deployment, what you have just told is I am going to 
participate in this conflict. I am going to return forever. If 
you told me, Flynn--and we were looking right at him. If you 
told me, Flynn, you are not going to come home until we win, 
how would you fight this war differently. Trust me, Senator. We 
would have fought it differently, much differently.
    Senator King. Well, I appreciate this.
    Mr. Chairman, I think this is one of the areas we really 
have to look at, the whole issue of bureaucracy because it is 
one thing how long it takes to get socks through the process, 
but if we are talking about an MRAP or ammunition or lifesaving 
equipment and we are in a battle space that is changing so fast 
that you just cannot fight the last war. So I hope you fellows 
can help us think this through because the tendency of any 
bureaucracy--and these are not bad people, by the way, but the 
tendency of any bureaucracy is, A, to say no and, B, to grow. I 
think it is something we are going to have to--this is the 
purpose of these hearings is to help us to address these 
questions. But this puts a very fine point on the necessity, it 
seems to me.
    Thank you very much, gentlemen.
    Thank you, Mr. Chairman.
    Chairman McCain. 70 flag and general officers that work for 
the Secretary of Defense?
    Mr. Jones. That is correct.
    Senator King. I wonder how many there were in all of World 
War II.
    Chairman McCain. There was a PACCOM [Pacific Ocean Areas 
Command] and there was a European Command.
    Senator Ayotte?
    Senator Ayotte. Thank you, Chairman.
    I want to thank all of you for your distinguished records 
of service to the country.
    General Flynn, I wanted to ask--really have all of you 
comment on something--your comments where you said I have also 
served many years in combat and have suffered from the lack of 
many capabilities we needed to fight our enemies and found 
myself fighting the Pentagon is much more than our enemies.
    The one thing that I have noticed in my first term in the 
Senate here is that when we get feedback from the ground and we 
get feedback from the soldiers, the airmen, the sailors, and 
they tell us about something, it becomes almost retributive in 
terms of when they are telling us something and what happens to 
them to give us the honest opinion of what they need from the 
ground and what they think. I feel like I have a responsibility 
to get that opinion, not just to hear from the service chief 
but to hear from the people who are really affected. The 
experience that I have seen around here is that, listen, you 
got to do it secretly. You got to do it quietly, and if they 
find you out, they will root you out.
    So how do we change that culture? You know there is a law 
that says if a Member of Congress--you legally can talk to a 
Member of Congress about your opinion. So how do we change that 
cultural problem that seems to be, in my view, something that I 
have been shocked by.
    Mr. Flynn. I could spend all day, and I will try to be 
very, very brief. I once wrote and sent in an urgent needs 
statement because we were actually using the equipment. So it 
was an off-the-shelf buy that we did and we are using it and it 
is working. Our operational guys going and doing raids in 
houses were using it. We pieced it together, and we said, okay, 
this is something that we want to go to our larger joint task 
force. So I wrote it, sent it up through the channels. I did 
all my back channel stuff to all my buddies because we were 
trying to move at a different speed. When it made it through 
the system, it got into the Army, in this case--but not always 
the Army is the bad guy. Folks on the Army staff said that is 
not what they need. He does not need that. Who does he think he 
is?
    Now, at the time, I was a colonel. These senior guys come 
out and they say, Flynn, if one of you ever need anything, call 
me. So I called up the boss, in this case the Deputy Secretary 
of Defense. I was calling from combat. So they took the call. 
Good enough, the DepSecDef said let me look into it and we were 
able to get the capability.
    Now, that is about as bold as you can get because you know 
what? I was, in this case, in Iraq and I was like, okay, what 
the hell are they going to do. We need this capability. I am 
finding a system that just could not, did not respond.
    Senator Ayotte. What worries me is that you were able to do 
that. I can assure you that that has happened, and the person 
who tried to do that in your shoes, instead of getting what 
they need, got punished in some way. That is what worries me. 
Am I wrong about this?
    Mr. Flynn. No. I think you are right. I see it right now. I 
actually see it happening right now because I have a lot of 
friends that are still serving, especially in the intelligence 
community where they feel so--it is not just about this 
assessment stuff. It is actually about other things that are 
going on, and it is like they feel encumbered, limited, 
constrained to say something because particularly with systems, 
there is some equipment out there that is just flat not 
working.
    We are getting ready to send some more forces to combat 
here. The Secretary of Defense was in here the other day 
talking to you about it. I know down at the troop level because 
I see it, they are asking for a particular piece of equipment 
and their headquarters are saying do not ask for that piece of 
equipment. In fact, in one case, one headquarters has said I do 
not want to see any more urgent needs coming through this 
headquarters. Now, for a commander to say that, it is--I guess 
I am not surprised, Senator, but----
    Senator Ayotte. What can we do to empower that, I mean, to 
empower that people can speak freely? What more can we do?
    Mr. Jones. I think it is, first and foremost, a leadership 
problem, and I think service chiefs owe it to put out guidance 
to their forces that this is our system. This is what happens. 
You are going to be--in the course of your career, you are 
going to talk to Members of Congress. You are going to talk to 
staff. The only thing we would ask is that what you tell them 
you have told us so that everybody is on the same sheet of 
music. You do not, on the one hand, keep your mouth shut while 
you are talking to your commander and then unload on your 
commander behind closed doors.
    So I think that we can do a lot more in the leadership 
department to try to educate our men and women in uniform 
exactly why this is part of the system. The other thing is 
positive leadership means that you do not take retribution out 
on people for speaking honestly about what they feel. So I 
think there is a way to do it. I just think it takes more focus 
and it takes positive leadership and guidance to make sure that 
people in the respective service understand that this is the 
policy. That still will not stamp it out, but it will help.
    Mr. Donley. I would associate myself 100 percent with 
General Jones' remarks. This is a leadership issue. As Members 
of Congress, I encourage you to keep those channels open and 
exercise your prerogative to talk to anybody you feel you need 
to talk to, to mix it up with our men and women in uniform.
    At the same time, as a service leader, we tell our forces, 
our civilians, our military personnel, use the chain of 
command. I would ask if something gets into a congressional 
channel, I am asking why is it not coming to me or the chief. 
Why is it not coming up through the leadership channels? So it 
is a leadership issue, and we should be encouraging our people 
to be straight with their chain of command and with anybody who 
asks from the outside.
    Senator Ayotte. So I appreciate all your comments on this. 
I think people would be straight with their chain of command if 
they felt that they were not going to get punished for doing 
so. So that is my big concern.
    Mr. Jones. Senator, I think you probably had this 
experience as well too that in units that are well led, you do 
not have that problem.
    Senator Ayotte. Right.
    Mr. Jones. Units that demonstrate that trait, that negative 
trait, are generally led by people who are somewhat insecure 
and cannot tolerate that just psychologically.
    Senator Ayotte. Right, because the leader will take 
feedback of all forms and be able to address it.
    Mr. Jones. You can overcome that.
    Senator Ayotte [presiding]: Thank you.
    It looks like I am here. So I am going to call on Senator 
Sullivan.
    Senator Sullivan. Well, I appreciate everybody's testimony 
and again your service, gentlemen.
    I want to dig in again. I think you might be seeing here 
maybe a little bit of consensus on the committee on the issue. 
General Jones, you wrote about it very articulately in your 
testimony, and all of you have been speaking to it on the 
tooth-to-tail ratio issue.
    I know this is a big question, but why do you think it has 
exploded so much? Is it just the normal kind of desire of 
bureaucracies to always grow whether it is at DOD or NATO 
[North Atlantic Treaty Organization] or the EPA [Environmental 
Protection Agency]? I mean, why do you think it exploded? 
Because I think that can help us get to some of the answers.
    Then on this issue of just 77 flag officers, do you think 
it would make sense for us, as opposed to try and reposition 
each flag officer position, say, in the Secretary's Office, to 
just pass a law saying, hey, you will have no more than 25 flag 
officers. You figure out what they should be doing?
    Why do you think it has grown, and then how do you think we 
can get a handle on it?
    I will ask one final question. General Milley has been 
really focusing on this issue because the Army has been 
required to undertake a lot of cutbacks, at least for now. I 
think he is looking at the wisdom of these cutbacks and to what 
degree the tooth-to-tail ratio is out of whack. What advice 
would you give him, who is really real-time struggling with 
this issue? But I think it is an important one that you could 
see some consensus building here in the committee. I know I 
threw a lot at you, but feel free to, any of you, take a crack 
at any of those questions. Thank you.
    Mr. Donley. Senator, I will take a first cut at it. First 
of all, I think it is the nature of bureaucracies to grow over 
time. So this issue of regularly addressing the need for 
greater efficiencies is an extremely important one. DOD's 
bureaucracy is no different than any other. It needs to be 
pruned.
    Senator Sullivan. Do you think we are only entity that can 
really do that effectively?
    Mr. Donley. I think Congress has a very strong role to play 
because this is your role to oversee the Department in this 
kind of a context.
    I do think Congress has effective tools that it can use. At 
times in the past, Congress has put ceilings on headquarters 
activities in the Department down to the service level, and the 
Congress currently has limits on general officers at each 
grade. So you do have tools available.
    The one aspect that I would ask you to think about--and it 
is a little bit new from our decades' old experience--is the 
rise of the contractor workforce. I think the Department needs 
to get a handle on that and is in the process of doing that and 
trying to figure out how many contractors are supporting its 
headquarters activities. So the way I advised Secretary Hagel 
on this, when we did the OSD review a couple of years ago--you 
will recall that he had given direction for 20 percent 
reductions in all management headquarters in the Department, 
including OSD.
    Senator Sullivan. Did that happen? You hear that everybody 
does that. The bureaucracies grow. So it does not look like it 
always works.
    Mr. Donley. No. I think it is underway, and it has been 
underway for a couple of years. Secretary Gates started this in 
his efficiencies work in 2011. It got reinforced by Secretary 
Hagel. Now it is getting reinforced again by Congress. Actually 
one of the complexities the Department is going through now is 
to how to unite all those efficiencies that had been set in 
motion that are now piled on each other sort of in three 
different time frames over the last 3 or 4 years. So I think 
the work is underway, and what the committee has directed the 
Department to do in this management headquarters review will 
help set a new baseline for that.
    But getting back to the contractors, you have to not just 
control the authorizations, but you have to control the money 
because if you allow the headquarters to have more money to 
work with, then they will buy contractor support with those 
resources. So getting a handle on how many contractors are 
supporting the headquarters and in what contexts is an 
important part of reestablishing a good baseline over these 
headquarters activities.
    Senator Sullivan. General Jones, General Flynn, any 
comments?
    Mr. Flynn. Just really quick because I am not sure you were 
here, Senator, when General Jones talked about civilian-to-
military ratios.
    Senator Sullivan. No. I did hear that.
    Mr. Flynn. Of everything I have heard today, that is a 
really, really important set of data to really hone in on and 
take a look at because it addresses a bigger issue than what 
you are talking about. So when we are really looking at reform, 
I think that is super important.
    The other is the flag officer ratio within the military. If 
you look at historical ratios, you know, how many flag officers 
per how many troops, as far back in time as you want to go, I 
would recommend that you go take a look at that because we 
actually have more flag officers per fighting unit than we did 
when we were doing really, really big things. So it is worth 
taking a look at as part of this effort.
    Mr. Jones. I do not have the figures, but I do have the 
active duty-to-enlisted ratios in the militaries. In the Air 
Force, it is 1 officer for every 4.1 enlisted. In the Navy, it 
is 1 officer for every 4.9; in the Army, 1 officer for 4.1; and 
in the Marine Corps, 1 officer for every 7.8 enlisted. That is 
the officer-to-enlisted ratios. That has been fairly consistent 
over time.
    With regard to your question about how do we get here, I 
completely agree with my colleagues. As a matter of fact, I 
noticed, when I was in the Pentagon, that everybody is for 
change as long as the change is done to somebody else. That is 
just the inherent personality of a bureaucracy. I believe 
honestly to enact the kind of change that we critically need 
here, it is going to take an external effort. I do not mean 
this pejoratively or critically of my former colleagues in the 
Pentagon. They are working like crazy trying to keep up with 
this very difficult world. But it is going to take an outside--
and they should participate in it, but it is going to take a 
focused, separate outside organization much like the Defense 
Reform Task Force of 1997 to really think this through and how 
to do it.
    Senator Sullivan. Thank you, gentlemen.
    Thank you, Madam Chair.
    Senator Ayotte. Thank you.
    General Jones, it sounds like you are signing up for duty--
I like that--with this outside task force.
    So since the chairman left me to close out this hearing, I 
cannot help myself since I have such a great panel here of 
incredible experts on national security issues. I have to ask 
you about something that has just been developing, which is 
yesterday the IAEA [International Atomic Energy Agency] issued 
its report on the prior military dimensions of Iran's nuclear 
program. Have you had a chance to take a look at that?
    One of the pieces of it talks about the fact we know that 
Iran--we have had serious concerns about the Parchin facility 
and what they have done there in terms of conducting 
experiments related to the design of the core of a nuclear 
bomb. We also know that they took activities even during the 
negotiations process to demolish and change things at that 
facility.
    So the IAEA report--one of the pieces of it concerns me 
because the IAEA concluded that the extensive activities 
undertaken by Iran at that facility since February of 2012 have 
seriously undermined the agency's ability to conduct effective 
verification.
    So I just wanted to ask you sort of post-agreement here--
the IAEA report issued yesterday. So I am not going to ask you 
to render an opinion on it. You have not seen it yet. But I 
think it raises some verification concerns. We had the testing 
of the long-range missile in October, which I have not seen a 
response yet from our administration on, that is in violation 
of existing U.N. [United Nations] resolutions, and many of us 
have long been concerned about their missile program because 
you do not need an ICBM [intercontinental ballistic missile] 
unless you are interested in delivering a nuclear weapon to the 
United States.
    So I just wanted to get your opinions, especially General 
Flynn and Jones, on where we are with Iran and where we are 
post-agreement, if you have concerns, what they are and what we 
should be doing.
    Mr. Jones. I have just spent some time in the Gulf region 
talking to various leaders of our friends and allies. The word 
that most came up in conversations is the word `existential 
threat.' Most of our friends and allies in the Gulf, quite 
apart from the agreement that was reached with Iran, still 
consider Iran to be an existential threat for the foreseeable 
future. As a matter of fact, one of the leaders said this 
agreement may paper over our concerns for a few years, but make 
no mistake about it. We are going to be fighting Iran for 25 
years or 30 years. This is not going away.
    So I think time will tell whether Iran is going to be 
trusted. My personal view is they are not going to be.
    Senator Ayotte. I think even just even in the immediate 
aftermath of the agreement----
    Mr. Jones. You would think.
    Senator Ayotte.--things are not going exactly how you would 
think they would.
    Mr. Jones. Yes. You would think.
    But we entered into this agreement not just in isolation 
but with our P5 Plus 1 partners, and they are bright people, 
intelligent, and trying to do the right thing.
    But I just think Iran has yet to prove itself that it is 
ready to join the family of nations in the way of doing trade, 
in the way of normalized relations, and do not worry about 
Hezbollah, do not worry about Hamas, do not worry about the 
fact that they are supporting a war in Yemen, and all the other 
things that they are doing. So until there is really a 
behavioral change at the leadership level in Iran, we should be 
very, very careful about what we buy into with them. I have 
seen no evidence that they are trustworthy.
    Chairman McCain [presiding]: I thank the witnesses and I 
thank you for your service, and I thank you for helping us in 
this very significantly difficult challenge. The more we talk, 
the greater the challenge becomes. So I thank you. It has been 
extremely helpful, and we will be calling on you in the future. 
Thank you.
    This hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                                 [all]
                                 
                                 
</pre></body></html>
